<html>
<title> - PROTECTING SACRAMENTO/SAN JOAQUIN BAY - DELTA WATER SUPPLIES AND RESPONDING TO CATASTROPHIC FAILURES IN CALIFORNIA WATER DELIVERIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   PROTECTING SACRAMENTO/SAN JOAQUIN BAY - DELTA WATER SUPPLIES AND 
  RESPONDING TO CATASTROPHIC FAILURES IN CALIFORNIA WATER DELIVERIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 6, 2006

                               __________

                           Serial No. 109-47

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-015                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Cathy McMorris, Washington           Vacancy
  Vice Chair                         Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Vacancy
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 6, 2006..........................     1

Statement of Members:
    Cardoza, Hon. Dennis, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     7
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     4
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Giovanetti, Hon. Gary S., Vice Mayor, City of Stockton, 
      Stockton, California.......................................    14
        Prepared statement of....................................    15
    Jacks, Paul, Deputy Director, Response and Recovery Division, 
      California Governor's Office of Emergency Services, Mather, 
      California, Prepared statement of..........................    74
    Lokey, William, Operations Branch Chief, Response Division, 
      Federal Emergency Management Agency, Washington, D.C.......    38
        Prepared statement of....................................    40
    Minton, Jonas, Water Policy Advisor, Planning and 
      Conservation League, Sacramento, California................    17
        Prepared statement of....................................    19
    Rodgers, Kirk, Mid-Pacific Regional Director, Bureau of 
      Reclamation, Sacramento, California........................    43
        Prepared statement of....................................    44
    Schroedel, Brigadier General Joseph, Commander and Division 
      Engineer, South Pacific Division, U.S. Army Corps of 
      Engineers, San Francisco, California.......................    35
        Prepared statement of....................................    36
    Sieglock, Hon. Jack, Supervisor, San Joaquin County, Lodi, 
      California.................................................     8
        Prepared statement of....................................    10
    Snow, Lester A., Director, California Department of Water 
      Resources, Sacramento, California..........................    46
        Prepared statement of....................................    50


OVERSIGHT HEARING ON ``PROTECTING SACRAMENTO / SAN JOAQUIN BAY - DELTA 
 WATER SUPPLIES AND RESPONDING TO CATASTROPHIC FAILURES IN CALIFORNIA 
                           WATER DELIVERIES''

                              ----------                              


                        Thursday, April 6, 2006

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Pombo, Napolitano, 
Calvert, Costa, and Cardoza.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. The Subcommittee on Water and Power will 
come to order.
    The Subcommittee is meeting today to hear testimony on 
protecting Sacramento/San Joaquin Bay-Delta water supplies and 
responding to catastrophic failures in the California water 
deliveries.
    I want to welcome everybody to today's hearing. And I would 
especially like to welcome the many who are here with the San 
Joaquin County Council of Governments.
    As we learned from the Jones Tract levee failure, all of 
California's water supplies are very vulnerable to disruption. 
Hurricane Katrina was a stark reminder of what could happen in 
the Delta and to the 22 million Californians who depend on it. 
In fact, my district depends on water pumped from the north, so 
it is safe to say that what happens in the Delta doesn't always 
stay in the Delta.
    This Subcommittee held a hearing on ways to protect our 
state's water supplies from catastrophic disasters in October 
of last year. We determined our vulnerabilities and the state 
of our infrastructure. We also learned that we should leave 
everything on the table as it relates to controlling 
floodwaters.
    We have a host of potential solutions to pursue, including 
a new or added water storage, levee improvements, streamlined 
work when health and human safety is compromised, and others. 
And as a result, we have a draft roadmap that the Corps of 
Engineers has put together to help rebuild levees and the 
Bureau of Reclamation continue to update its studies on new 
storage. But we still have much to do, and that is what this 
hearing is all about.
    You will hear today from a host of Federal, state, and 
local agencies who are charged with protecting our regions from 
floods and their destructive effects. They are also on the 
front lines of responding to a levee break.
    The goal this morning is to be proactive in understanding 
the chain of responsibility in the event of a natural disaster. 
We want to learn from Katrina and ensure that California is 
well-prepared to address a flood situation or other disruption. 
We owe the people of California answers and results, especially 
when it comes to protecting their livelihoods and property.
    Today's hearing is an important part of meeting that goal. 
And with that, I look forward to hearing from today's very 
qualified witnesses, and also from my colleagues.
    I now defer to Full Committee Chairman, Richard Pombo, for 
his opening statement. Richard.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
                    Subcommittee on Water and Power

    Welcome to today's hearing. I would especially like to welcome the 
many who are here with the San Joaquin County Council of Governments.
    As we learned from the Jones Tract levee failure, all of 
California's water supplies are very vulnerable to disruption. 
Hurricane Katrina was a stark reminder of what could happen in the 
Delta and to the 22 million Californians who depend on it. In fact, my 
district depends on water pumped from the north, so it's safe to say 
that what happens in the Delta doesn't stay in the Delta.
    This Subcommittee held a hearing on ways to protect our State's 
water supplies from catastrophic disasters in October of last year. We 
determined our vulnerabilities and the state of our infrastructure. We 
also learned that we should leave everything on the table as it relates 
to controlling floodwaters. We have a host of potential solutions to 
pursue, including new or added water storage, levee improvements, 
streamlined work when health and human safety is compromised and 
others. As a result, we have a draft roadmap that the Corps of 
Engineers put together to help rebuild levees and the Bureau of 
Reclamation continue to updates its studies on new storage. But, we 
still have much to do and that's what this hearing is about.
    We will hear today from a host of federal, state and local agencies 
who are charged with protecting our regions from floods and their 
destructive effects. They are also on the front lines of responding to 
a levee break.
    The goal this morning is to be pro-active in understanding the 
chain of responsibility in the event of a natural disaster. We want to 
learn from Katrina and ensure that California is well-prepared to 
address a flood situation or other disruption. We owe the people of 
California answers and results, especially when it comes to protecting 
their livelihoods and property. Today's hearing is an important part of 
meeting that goal. With that, I look forward to hearing from today's 
very qualified witnesses and from my colleagues.
                                 ______
                                 

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Mr. Chairman. I will be brief, and 
enter my entire statement into the record.
    I want to thank you for holding this hearing today. And I 
would especially like to welcome the many folks from San 
Joaquin County who joined us here today. I look forward to 
hearing from San Joaquin County Supervisors Jack Sieglock and 
Victor Mow, and Stockton Vice Mayor Gary Giovanetti on what is 
a very important issue.
    I think most of us know that in the last several days we 
have had heavy rain in California. It has caused several small 
levee breaks, but more rain is expected. So far we have been 
able to avoid any major levee breaks or failures in the Delta. 
But with seven days of this projected rain coming, it is going 
to be a long week for us.
    This is, I believe, the fourth hearing that we have held on 
the levee system in California on the San Joaquin Delta, and it 
is a problem that is getting more attention from other Members 
of Congress. But it is time that we did something about it. So 
I appreciate you holding this hearing today. And I yield back 
my time.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    I commend Subcommittee Chairman Radanovich for holding this 
important hearing. Today's proceeding is yet another hearing on the 
Bay-Delta. It's the third in the last month alone.
    I would especially like to welcome the many folks here from San 
Joaquin County who have taken time out of their busy schedules to 
attend this hearing. We are also fortunate to have San Joaquin's 
Supervisors Jack Sieglock and Victor Mow and Stockton's Vice Mayor Gary 
Giovanetti who will provide their expertise to the Subcommittee today. 
I commend you and the other San Joaquin COG folks who have traveled 
across our great Nation to be part of this process.
    The Delta is something special for all of us. It serves as a 
recreational and environmental treasure, a vital part of our shipping 
and transportation links and drinking and irrigation water source to 
millions of Californians. Most importantly, it serves as our home, our 
backyards where generations of us continue to live and work.
    The Delta is also one of the most flood-prone areas in the world. 
In recent days, heavy rains in California have caused several small 
levee breaks. More rain is expected in the coming days, adding to an 
already strained system. Fortunately there have not been any serious 
breaks so far this year. However, under current conditions, it is not a 
question of ``if'' there will be a serious failure but ``when.'' This 
is unacceptable.
    Since this Subcommittee's hearing on levees last October, we have 
made progress on turning this situation around. We secured 
appropriations and we now have a Corps of Engineers draft plan in place 
to begin the long process on repairing our levees. This is the first of 
many steps that we will have to take to secure our levees.
    I would also like to commend Chairman Jerry Lewis for committing to 
work for more critical funding in this year's Energy and Water 
Appropriations bill. I appreciate his willingness to put this year's 
bill on an accelerated schedule, so that we can begin work as soon as 
possible.
    While we take those steps, governments at all levels must be 
prepared to respond to an unthinkable, but very possible massive levee 
failure. As we witnessed during the Jones Tract levee failure in 2004, 
there was some confusion in terms of what agencies should respond and 
how. The appropriate agencies adapted, overcame and performed well, but 
that initial confusion was an eye opener for many of us. And we all 
know about the chaos surrounding Hurricane Katrina.
    We have an opportunity--and a serious responsibility--to be fully 
prepared if the Delta levees fail. That's why Senator Feinstein--who 
has been with me on this issue from the beginning--and I recently sent 
a letter to the Department of Homeland Security, FEMA and the State of 
California's Office of Emergency Services to ask for a comprehensive 
and coordinated emergency preparedness plan specific to the Delta. 
Human life, property, the environment and the future of California 
depend on such a plan.
    Ways to maintain and rebuild our levees, provide more flood control 
through storage and emergency preparedness will be our focus for this 
hearing. We will not solve everything today, but this hearing 
represents another step towards protecting our region its people and 
its way of life. I commend you, Chairman Radanovich, for holding this 
important hearing and look forward to hearing from our distinguished 
panels of witnesses.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Chairman. I will now 
recognize the distinguished Ranking Minority Member, Grace 
Napolitano, for any statements that she may have.
    Grace.

  STATEMENT OF THE HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA.

    Ms. Napolitano. Thank you, Mr. Chairman. And as you and 
Chairman Pombo have so rightly put it, the rains are making us 
very nervous, not a little nervous, but very nervous, because 
of course, in Southern California, we rely on the levees.
    We really have not paid as much attention to the Delta as 
we should have, and Katrina has forced all of us to really 
understand what can happen, reality, and that the Delta levees 
play a significant role in the water delivery for all of 
California. Of course, we all know Southern California relies 
upon about a third of that water to come through those areas.
    And I do know that the local governments are the ones on 
the front lines, and I believe that they are here as witnesses 
this morning. And I certainly want to let them know that I have 
been a helpful government official, and I know from experience 
how we must try to be accountable to the citizens we represent.
    But at the same time, it is hard to get the attention of 
state and Federal agencies as to the urgency of the matter. And 
I welcome you to the hearing, and hope that this will convince 
our agencies to act more sufficiently.
    Mr. Chair, I thank you, and I look forward to the 
testimony.
    Mr. Radanovich. Thank you, Grace.
    Before we get on with the other opening statements, as we 
all know, it is raining very heavily in California, and it 
looks like it is going to continue. It is going to be an 
interesting spring. And I think because of that, it has made 
this hearing a little more timely. And because of that, we have 
got more people in the room than would probably normally be 
here.
    I want to invite some of the folks that are standing, if 
you want to use this lower dais to sit down and listen to the 
hearing, you are more than welcome to use it. Just don't think 
that you can ask questions of the panel when we get to 
questions. But just to provide some seating, if you would like 
to take advantage of that, please feel free to do so.
    I now recognize the honorable past Chairman of this 
Subcommittee, Mr. Ken Calvert. Ken.
    Mr. Calvert. Mr. Chairman, I would love to hear from the 
witnesses.
    Mr. Radanovich. Thank you, thank you. Mr. Costa.

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman. I think it is 
appropriate and timely that the Subcommittee is holding this 
hearing this morning, given the recent six weeks of rain. It is 
either feast or famine in California.
    In January, we thought we might be looking at a dry year, 
or below average. And now in the last six weeks, we are not 
only above average, but we have had the potential threat of 
floods, and we have had some minor levee breaks.
    And, therefore, I was pleased to find that the Bureau of 
Reclamation, Mid-Pacific Region, along with the Department of 
Water Resources and the Army Corps of Engineers, has 
reconstituted their triage team to provide sort of an instant 
response if they can, coordinating the different water projects 
to protect against potential flooding.
    The title of this Subcommittee hearing today is protecting 
the Bay Delta Water Supplies and Responding to Catastrophic 
Failures in California Water Deliveries.
    I am not only interested in the current situation that we 
are dealing with, as all of the Members have noted, but I am 
also interested in the long-term investments. I know we have an 
infrastructure bond measure that the legislature and the 
Governor are contemplating and a number of us have signed to 
ensure that we work together to develop a bipartisan influence 
to respond to not just needs of the Sacramento/San Joaquin 
Valley areas but the entire State of California.
    Congresswoman Napolitano noted that there have been 
significant flooding issues in Southern California, but there 
is also a significant importance to that Northern California 
water coming down to Southern California as part of the blend 
of water supplies in Southern California. Therefore, the Delta 
is the linchpin of our plumbing system.
    You know, when we look at levee restoration efforts, and I 
have been a part of an effort for 20-some years to provide 
state funding for Delta levee restoration, I think what I am 
going to be very interested to hear from the witnesses is 
whether or not there has been a cost benefit analysis done as 
it relates to a number of the levees. They are not all Federal 
responsibilities; some are state responsibilities, some are 
local responsibilities.
    Jones Tract, I believe in the Tennessee area, broke last 
year. It is about 8,000 acres of land, it cost $100 million to 
repair that. It just seems to me that when we are looking at 
investing for protection, that we need to look at whether or 
not, in fact, some of the areas might be a better investment to 
pay fair market value and purchase the land, as opposed to 
investing in levees that ultimately will degrade.
    The University of California, Davis produced a study 
earlier this year that demonstrated that if there was a 6.5 
earthquake in that area, that most of the Delta area would, as 
a result of liquefaction, turn to Jell-O. And therefore, all of 
that investment would be for naught.
    And so it seems to me we ought to be as wise in terms of 
how we do the restoration effort, and we ought to have good 
input and cooperation with our state counterparts as we look at 
a major infrastructure bond that involves not just flood 
control protection.
    But I was speaking to Congressman Cardoza yesterday on the 
Floor, and I said it would be nice if we could visualize, as 
the debate is taking place, to recreate what that part of 
California would look like today if there were no dams, 
reservoirs to protect it, not only for flood control, but also 
provided water supplies. And this notion that it is either yes 
or no makes absolutely no sense. They would be in a rowboat 
going to the State Capitol if it weren't for the infrastructure 
that exists there now, and we need to be mindful of that fact.
    So I look forward to the testimony, and I look forward to 
asking questions of the witnesses. Thank you very much.
    Mr. Radanovich. Thank you, Mr. Costa. Mr. Cardoza.

   STATEMENT OF THE HON. DENNIS CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Thank you, Mr. Chairman, for convening this 
hearing for items that have purpose and meaning.
    Both Chairman Pombo and I represent portions of the Delta 
that have become increasingly concerned over the years about 
the state of our levees and the lack of response should an 
emergency occur within the Delta itself or the Bay area.
    When the next earthquake occurs, the Valley will be the 
Baton Rouge of California. And therefore, it is critical that 
we continue to meet regularly with local, state, and Federal 
agencies to work toward repairing the levees and developing an 
emergency response plan.
    That need has been made even more clear in the recent 
rains, which have further weakened the levees and caused severe 
flooding in parts of the Valley this week. In fact, it has been 
brought to my home, where 150,000 people were evacuated.
    Whether a major breach will occur is no longer even a 
question; the question is when it will occur, and will we be 
prepared to handle it. The entire levee system in the San 
Joaquin Valley has never been upgraded, even after the floods 
of 1979, which caused millions of dollars in damage.
    After those storms, numerous breaches along the San Joaquin 
River were repaired, but never upgraded. Instead, the 
California and Sacramento and San Joaquin River Basin 
Comprehensive Study was initiated, but never even completed. As 
a result, the system remains an unmanageable combination of 
private, state, and Federal levees, with no single agency 
taking responsibility for addressing the problem.
    In order to convey the magnitude of this problem, I would 
like to mention a few statistics. Two-thirds of the state 
population, many in Southern California, receive a portion of 
their drinking water from the Delta. Fifty percent of 
California agriculture, seven million acres, receive water from 
the Bay Delta system. The Central Valley is the number one ag-
producing region in the world. Clearly a major breach would be 
catastrophic, not just for the Valley, but for the rest of 
California, and especially Southern California as well.
    We would have a real problem on our hands. And while the 
focus of Federal funds has primarily been in the Sacramento 
region, fresh drinking water into agriculture and the 
nationwide economic impact of a disaster response would clearly 
indicate that the time has been significantly upon us to 
upgrade the levees and formulate a plan to deal with 
emergencies.
    I would also like to note that it begs the question why 
aren't we focusing more heavily on the increasing surface 
storage capacity of the Valley? We need more surface storage 
capacity.
    This week is a perfect example of what we could have done 
if we had had availability. We should have filled that 
reservoir up, and we could have had several years worth. We 
could have had availability. As we see the snow-pack is here 
and it has gone well beyond 100 percent, 150 percent of 
average, we must be able to preserve that water.
    Mr. Chairman, thanks again for holding this hearing.
    [The prepared statement of Mr. Cardoza follows:]

Statement of The Honorable Dennis Cardoza, a Representative in Congress 
                      from the State of California

    Thank you, Mr. Chairman, for convening this hearing on an issue 
that urgently needs attention.
    Both of us represent portions of the Delta and have become 
increasingly concerned over the years about the state of the levees and 
the lack of a response should an emergency occur within the Delta 
itself, or in the Bay Area.
    When the next earthquake occurs, the Valley will be the ``Baton 
Rouge'' of California. Therefore, it's critical that we continue 
meeting regularly--with local, state and federal agencies--to work 
toward repairing the levees AND developing an emergency response plan.
    That need has been made even more clear by the recent rains which 
have further weakened the levees and have caused severe flooding in 
parts of the Valley this week.
    Whether a major breach will occur is no longer even a question. The 
questions is when will it occur and will we be prepared to handle it.
    The entire levee system in the San Joaquin Valley has never been 
upgraded, even after the floods of 1997, which caused millions of 
dollars in damage. After those storms, the numerous breaches along the 
San Joaquin River were repaired, but never upgraded.
    Instead, The California Sacramento & San Joaquin River Basin 
Comprehensive Study was initiated but never completed.
    As a result, the system remains an unmanageable combination of 
private, state and federal levees, with no single agency taking 
responsibility for addressing the problems.
    In order to convey the magnitude of this problem, I'd like to 
mention a few statistics:
    <bullet>  2/3 of the state's population (many in southern 
California) receives a portion of their drinking water from the Delta
    <bullet>  50% of California agriculture--7 million acres--receives 
water from the Bay-Delta system.
    <bullet>  The Central Valley is the number 1 ag producing region in 
the world.
    Clearly, a major breach would be catastrophic not just for the 
Valley, but for the rest of California--and especially southern 
California--as well.
    We have a real problem on our hands.
    And while the focus of federal funds has primarily been in the 
Sacramento region, the threat to drinking water and agriculture--and 
the nationwide and economic impacts a disaster would cause--clearly 
indicate that it is time to spend significant resources to upgrade the 
levees and formulate a plan to deal with an emergency.
    I would also like to note that this begs the question--why aren't 
we focusing more heavily on increasing surface storage capacity in the 
Valley?
    As we speak, the snowpack in the Sierra has gone beyond 150% of 
average. Not only should this water be preserved, surface storage 
projects would go a long way toward alleviating flooding.
    For too long irrational and unworkable environmental regulations 
have prevented storage projects from being built and levees from being 
repaired.
    It is time to take a serious look at these policies that have 
strangled our ability to address these issues.
    I look forward to hearing from our constituents as well as the 
state and federal agencies on where we stand and their plans to 
proceed.
    Thank you
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Cardoza. I appreciate your 
opening statement.
    There being nobody else to give an opening statement, we 
will refer to our first panel. I want to welcome The Honorable 
Jack Sieglock, San Joaquin County Supervisor from Lodi, 
California; The Honorable Victor Mow, Supervisor of San Joaquin 
County in Stockton, California; The Honorable Gary Giovanetti, 
Vice Mayor of the City of Stockton; and Mr. Jonas Minton, 
Senior Project Manager of the Planning and Conservation League.
    Gentlemen, welcome to the hearing. What we will do is hear 
from each of you, and then open up the panel for questions from 
the dais up here.
    We do have a five-minute clock. Now, your written testimony 
is submitted for the record, so that will be included in its 
entirety. And you are free to be extemporaneous in your 
remarks, if you would like to. If you would abide by the five-
minute clock, that would be appreciated.
    Mr. Sieglock, welcome to the Committee, and you may begin.

 STATEMENT OF THE HON. JACK SIEGLOCK, SUPERVISOR, SAN JOAQUIN 
 COUNTY, LODI, CALIFORNIA; ACCOMPANIED BY THE HON. VICTOR MOW, 
      SUPERVISOR, SAN JOAQUIN COUNTY, STOCKTON, CALIFORNIA

    Mr. Sieglock. Thank you, Mr. Chairman.
    I would like to acknowledge my three staff members who have 
been instrumental during this whole process.
    I would like to point out that we very much appreciate 
their leadership and the leadership that they have already 
provided with regard to Delta issues.
    In particular, we appreciate the efforts of this Committee 
and the efforts of Mr. Pombo with regard to Jones Tract, which 
probably signalled once again the need to begin working on the 
Delta. We appreciate his efforts with regard to offstream 
storage, a little project called the M.O.R.E. Water Project, 
which would divert water, which would be in complementary 
standing to the Temperance Flat Project, which would complement 
the Shasta Dam enlargement. We think that is all part of the 
solution to helping relieve pressure off the Delta, which would 
also then help with the Delta levee situation.
    Not all of you are from the Delta area. Geographically it 
is Sacramento, Stockton, Tracy, Pittsburgh, Antioch. Under that 
area 1,000 miles of waterways. It was built in the early 1900s, 
a lot by Chinese laborers, and not a lot has been done since 
then.
    Some dollars have been invested by the Federal government, 
by the state government, but it is in much need of repair, 
expansion, and fortifying.
    A lot of times I think we think of the Delta as 
agriculture, wildlife, recreation, and again, delivering water. 
It is obviously a great switching yard for the State of 
California, so there are at least 22 million reasons why we 
should be concerned about the Delta, because of all the water 
that goes from north to south.
    But in addition to that, the water quality standards are 
very important because there are a number of agencies that pull 
directly out of the Delta into the East Bay and Bay area.
    In addition to the water aspect, we have two deepwater 
ports. We have transcontinental railroads, which you may not 
think about as much. Sixty percent of the natural gas in 
Northern California comes from the Delta. Again, we have the 
roadway system. And we have a number of power transmission 
facilities.
    So the Delta is very important for a number of reasons that 
expand beyond the local interests, that expand beyond state 
interests, and they go to Federal economic interests. They go 
to world trade. So there is obviously and definitely a need for 
greater Federal involvement.
    The management of the Delta is very complicated. As you may 
know, some of the levees are Corps-related, some of the levees 
are managed by cities because of their jurisdiction or 
boundaries, meeting FEMA requirements. And again, we appreciate 
Congressman Pombo's leadership and your support for funding 
through here to beef up those levees, so that we would be well-
protected in the Stockton area.
    And in that regard as well, the other manager is the 
reclamation district. In our county alone, we have 51 
reclamation districts, and so these are locally elected bodies. 
And they tax themselves. They raise money.
    But the process to work on the levees is very complicated. 
It takes a long time. It can be very cumbersome and expensive.
    So I think part of the solution to discuss today are not 
just the Federal dollars that may go on four levees and those 
kinds of things, but also looking at streamlining the process. 
We would like to see, the Corps used to be very involved in the 
Delta in terms of dredging, and using that dredged material to 
beef up the levees. We have seen that effort become virtually 
non-existent any more. These rivers and the trees would fall 
down, they would keep them clear, they would chop them out. 
That just doesn't occur any more. We would like to see that 
effort restored by the Corps.
    In 1997, after that flooding took place, we saw the 
beginnings of a study and partnership between the state and 
Federal government to look at the problem, study the problem, 
try to identify what ought to be done, how the Federal 
government, state government, and local government work 
together. We would like to see that effort continue.
    An interim report came out called the Sacramento-San 
Joaquin River Basin California Comprehensive Study. We would 
like to see that effort completed. It didn't go far enough. It 
wasn't done. The rains this week certainly highlight that.
    It was mentioned here about a 6.5 earthquake. Well, we 
could have a pineapple express come through this year, which 
could do as much damage I suppose as an earthquake, if it 
caused all the snow to melt at once.
    So the threat this year is imminent. Not just rain next 
week, but again, a pineapple express, if you don't know, it is 
a warm spring. And so I believe we had one of those in 1986 and 
1997. So that is obviously a very imminent threat.
    Anyway, let me close by saying again we very much 
appreciate your holding these hearings. Federal involvement is 
important. You do have a very important role to play. Obviously 
we need your assistance. Flood control has been a role played 
by the Federal government for many years. We see that role 
continuing.
    We see the Delta in the whole, and in that regard, too, I 
hope we don't go to something like that to solve the problem. I 
don't see that solving the issue. I would like to make that 
statement as one representing the San Joaquin County. I think 
we need to look at the Delta as a whole. I don't see that as 
the solution. It may solve a small problem, but not the 
problem.
    Thank you very much, Mr. Chairman. I appreciate you 
allowing me to start.
    [The prepared statement of Mr. Sieglock follows:]

  Statement of Jack Sieglock, County Supervisor, Fourth District, and 
    Thomas R. Flinn, Director of Public Works, San Joaquin County, 
        California, on behalf of San Joaquin County, California

Background
    The Sacramento-San Joaquin Delta lies at the confluence of the 
Sacramento and San Joaquin Rivers in the heart of the Central Valley of 
California. The overall system consisting of some upstream levees and 
levees in the heart of the Delta contains over 1,600 miles of federal 
participation levees, and an additional 730 miles of levees which are 
non-federal. This system of channels, weirs and bypasses protect more 
than a half million people and in excess of $50 billion of property 
improvements. The Delta itself stretches across six counties and 
contains mostly agricultural land uses; however, the cities of 
Brentwood, Tracy, Lathrop, Manteca, Stockton, Lodi and Sacramento all 
lie within the influence of the Delta. Today we are speaking to you as 
San Joaquin County on behalf of the Delta. Approximately a third of the 
Delta lies within our county, but the Delta itself is not only 
important to us and the surrounding counties, but also the entire state 
and country. Construction of the levees started back in the 1860s in 
order to protect agricultural operations. Since that time many of the 
islands created by these levees have subsided due to several physical 
phenomenon. It is not uncommon in some areas to find the elevation of 
the islands to be as much as 20 feet below sea level. The California 
San Joaquin Central Valley levee system that protects invaluable 
infrastructure has received limited maintenance funding for decades.
Activities Within the Delta
    On first review it would appear that the Delta is primarily an 
agricultural concern. Closer examination shows that there are various 
elements of both transportation and utilities infrastructure that are 
supported by the Delta and would be severely impacted by a levee 
failure. As shown on the attached map there are numerous state and 
interstate highways that traverse the Delta, as well as several 
transcontinental railroads and two deepwater ports, significant 
statewide power transmission and natural gas storage and transmission 
facilities, to say nothing of the water transmission facilities which 
provide a significant portion of the San Francisco Bay Area, as well 
as, the California Aqueduct and Delta Mendota Canal which serve the 
southern central valley and the majority of southern California.
Impacts of Delta Levee Failure
    Most of the levees in the Delta are quite fragile. They are 
constructed on weak and unstable soils and the levees themselves have 
often been constructed with excavated non-engineered soil. These levees 
are all subject to various forms of potential failure including over-
topping, earthquakes, base failures, seepage, wind and water erosion, 
extended high water saturation, dam failure inundation, to say nothing 
of rodent damage. In June of 2004, a levee break occurred on Lower 
Jones Island which appears to have been due to burrowing rodents. This 
failure resulted in the flooding of approximately 12,000 acres, 
displacement of agricultural workers, took nearly a year to restore the 
island, and cost to the State and Federal governments for restoration 
exceeded $100 million. In 1997 floods resulting from high flows in the 
San Joaquin River forced more than 120,000 people from their homes, and 
damaged or destroyed 30,000 homes and 2,000 businesses. This is just a 
small example of what could occur. The State of California Department 
of Water Resources has conducted a risk analysis to determine what 
could happen in the event of an approximate magnitude 6.5 earthquake on 
the west side of the Delta. That forecast predicts 30 levee failures 
inundating 16 islands, causing major disruption to transportation and 
utility systems, and, most important the disruption of water supply to 
over 22 million citizens, industry and agriculture for several years. 
The economic, to say nothing of the personal impact of such a failure, 
would be a catastrophe of a similar magnitude that has been suffered by 
the City of New Orleans. The State's analysis also indicated that the 
probability of an earthquake of 6.5 at this location is quite similar 
to that of a Katrina event. It estimates economic damages exceeding $30 
billion over five years.
Management of the Delta
    The management of the Delta is a very complicated issue with 
numerous state and federal regulatory agencies being involved as well 
as numerous counties, cities and utilities having very strong 
interests. It is important to note that at in San Joaquin County, most 
of these islands were created and are being maintained by individual 
separate small Reclamation Districts that are managed by the farmers on 
those respective islands. Within San Joaquin County alone there are 51 
such Reclamation Districts. Involved federal agencies in the Delta 
include the Federal Bureau of Reclamation, the Fish and Wildlife 
Service, the U.S. Geological Survey, the Bureau of Land Management, 
EPA, the Army Corps of Engineers, the Department of Agriculture, the 
Natural Resource Conservation Service, NOAA Fisheries, as well as the 
federal participation in the CalFed Bay-Delta Program. Although the 
County of San Joaquin maintains no levees directly within the Delta, we 
do maintain levees upstream of the Delta that are instrumental to the 
entire system. We also participate during emergency evacuation and 
relief activities. The County is not resourced to fight major floods 
and looks to the State and Federal government for assistance in such 
cases. It should be noted that the County in cooperation with the City 
of Stockton and the San Joaquin Flood Control District developed a 
project to upgrade levees in the Stockton area. This was done 
proactively to meet FEMA requirements with subsequent federal approval 
for reimbursement. This project serves as a model of rapid project 
development which should be further considered in order to expedite 
improvements at a reduced cost. It should also be noted that the County 
is also advocating the More Water Project for off-stream flood storage 
from the Mokelumne River which also feeds into the Delta. If the County 
is successful in this project, storm water diversion during peak 
periods of high flow would decrease the potential problems in the 
Delta.
Problem Identification
    In summary, the Delta is a facility of importance to not just San 
Joaquin County but the entire State of California and Nation. The 
infrastructure upon which we depend is very old. We have seen declining 
participation on behalf of state and federal agencies in helping to 
maintain and improve these facilities. There is increased development 
in these areas. There are ongoing disputes as far as responsibility for 
failures. And finally, there is not a clear direction for the future of 
the Delta. At this time in San Joaquin County we feel the need to 
evaluate the Delta and determine how to assure its sustainability. We 
need a comprehensive plan. We need funding and somehow or another, we 
need stronger, focused leadership.
Local Actions
    In order to address these matters the San Joaquin County Flood 
Control and Water Conservation District, which is only a planning 
agency with limited resources, has begun to take steps to work with the 
entities within our County and surrounding areas to develop some 
strategies and plans to address these issues. The Federal Government 
could be of assistance in helping us to address the following issues:
Short Term:
    <bullet>  Streamline environmental processes for permitting of 
levee maintenance work
    <bullet>  Consider restoration of historic U.S. Army Corps of 
Engineers (USACE) dredging activities
    <bullet>  Complete the California Sacramento & San Joaquin River 
Basin Comprehensive Study started by the USACE and the California State 
Reclamation Board in response to concerns raised by the 1997 flood. A 
draft interim report, which fell far short of the original project 
scope, was released in July 2002
    <bullet>  Authorize participation of the USACE in emergency 
response and emergency evacuation planning
Mid Term:
    <bullet>  Provide leadership and/or funding to become a part of the 
team to design the future of the Sacramento-San Joaquin Delta
    <bullet>  Direct the USACE to assume a leadership role in assuring 
preservation of the Sacramento-San Joaquin Delta
    <bullet>  Fund USACE research into development of new, cost-
effective strategies for design, construction and maintenance of levees
Long Term:
    <bullet>  Increase federal participation for maintenance of Delta 
levees
    <bullet>  Support local implementation of projects with Federal 
review and cost-share reimbursement
    Thank you very much for your consideration.

    [GRAPHIC] [TIFF OMITTED] T7015.001
    
    [GRAPHIC] [TIFF OMITTED] T7015.002
    
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Sieglock. We usually refer 
to the peripheral canal as Joe or Dan. You know, it comes with 
much less baggage than does peripheral canal. But thank you for 
your testimony. It was very valuable.
    Next is Mr. Gary Giovanetti, the Mayor of the City of 
Stockton. Welcome, Mr. Mayor.

      STATEMENT OF THE HON. GARY GIOVANETTI, VICE MAYOR, 
             CITY OF STOCKTON, STOCKTON, CALIFORNIA

    Mr. Giovanetti. Chairman Radanovich, members of the 
Subcommittee on Water and Power, thank you for this opportunity 
to present our issues on water supply in response to 
catastrophic levee failures in the Sacramento/ San Joaquin Bay-
Delta Region, Central California.
    My name is Gary Giovanetti. I proudly serve as the Vice 
Mayor for the City of Stockton, Board member of the San Joaquin 
Area Flood Control Agency. With me today, sitting behind me is 
J. Gordon Palmer, Jr., a City Manager if you have questions for 
him.
    Stockton is located 40 miles south of Sacramento and 80 
miles east of San Francisco at the heart of the Bay Delta 
Estuary, the largest on the West Coast. We are the 13th-largest 
city in California and the 65th-largest city in America.
    The Delta is a tidal area where the Sacramento River, 
flowing from the north, and the San Joaquin River, flowing from 
the south, and their tributaries come together. This estuary is 
738,000 acres, spanning across six counties. The Delta is 1100 
miles of waterways surrounding 60 levee-protected tracts and 
islands used primarily for agriculture. The lowest islands are 
in the central and western Delta, where much of the land is 15 
to 25 feet below sea level due to oxidation of the peat soil 
from continuous farming.
    The Water Education Foundation reports an estimated 25 
percent of all warm water and sport fishing species as well as 
80 percent of the state's commercial and fishery species live 
in or migrate through these waters.
    The State Water Project and the Federal Central Valley 
Project transformed this saltwater estuary and marsh into a 
freshwater conveyance for two-thirds of the population of 
California for 22 million people, and the multi-billion-dollar 
agricultural economy supplying irrigation to seven million 
acres of farmland.
    The western portion of Stockton borders the Delta. These 
levees are well maintained, and provide 100-year flood 
protection per FEMA criteria. It should be noted that our 
taxpayers assessed themselves and completed this 100-year 
protection under budget, and in less time than expected.
    The freshwater conveyance that now exists in the Delta is 
in serious jeopardy. Its 1100 miles of waterways benefit from 
only 275 miles Federal project of protected levees maintained 
by the Army Corps of Engineers. The balance is privately owned 
by agricultural communities, and is not built to FEMA 
standards.
    As has been mentioned, you may recall a single failure in 
the weakest part of the levee at Jones Tract cost $100 million 
to repair and dewater the tract. Property owners are not 
capable of writing that check. Just think if we could have used 
that money strictly for repair and maintenance.
    We must also look to the Endangered Species Act for common-
sense interpretation. We know now that the Jones Tract failure 
was due primarily to beaver caves and dams. My mother has 
always told me an ounce of prevention is worth a pound of cure. 
She was never an elected official, but she knows exactly why we 
are here.
    In recent years, the state has provided some assistance to 
the Levee Subventions Program, a matching of 75 percent for 
repair and maintenance costs. This program will end this year. 
It is estimated that $1 billion still is needed to repair and 
reinforce the worst 500 miles of Delta levees.
    Flooding of one of the Delta islands can have a domino 
effect by putting more pressure on the adjacent levees, causing 
these levees to fail. If many islands flood simultaneously, 
saltwater from the San Francisco Bay will be sucked into the 
freshwater areas, contaminating drinking water and agricultural 
irrigation.
    Beyond the water conveyance protection, at risk are the 
inland ports of Stockton and Sacramento, commercial and 
recreational navigation, highways, railroads, electrical 
transmission lines, natural gas storage, utility pipeline, 
fish, migratory waterfowl, and hundreds of thousands of jobs.
    Federal assistance cannot be limited to disaster relief. 
The fifth-largest economy in the world demands your attention 
now. Prevention is hugely cost-effective.
    In summary, the Federal government should take immediate 
first steps to channel Federal dollars to supplement the State 
Levee Maintenance Subventions Program. The Federal government 
should also move to develop an action plan to close levee 
breaks, and dewater flooded areas, to minimize interruption and 
loss of water supply.
    We are requesting, we are begging, we are imploring you to 
act. A levee break, as witnessed with Hurricane Katrina, will 
affect 10 times the population, 10 times the loss to the 
California economy, and 10 times the cost to repair. We don't 
have time to debate, conjecture, and policy discussion.
    Thank you for your consideration.
    [The prepared statement of Mr. Giovanetti follows:]

             Statement of Gary S. Giovanetti, Vice Mayor, 
                      City of Stockton, California

    The Sacramento/San Joaquin Delta is the tidal area where the 
Sacramento and San Joaquin Rivers and their tributaries meet the Delta 
Estuary, the largest estuary on the West Coast of the United States. 
The Delta comprises more than 738,000 acres in six counties. The 
Delta's 700 miles of waterways surround more than 60 levee protected 
tracts and islands. The lowest islands are in the agricultural portions 
of the western Delta where much of the land is 15 to 25 feet below sea 
level and continuing to sink due to oxidation of the peat soil. Most of 
the 1,100 miles of levees surrounding these islands are privately owned 
and maintained. The Delta serves as the hub of fresh water deliveries 
from northern to southern California. The State Water Project and 
Federal Central Valley Project transformed the Delta from a salt water 
estuary into a fresh water conveyance for a multi-billion dollar urban 
and agricultural economy. The Central Valley Project relies on Delta 
fresh water conveyance capabilities to supply 7 million acres of highly 
productive farmland south of the Delta.
    A massive Delta levee failure, likely caused by an earthquake with 
a similar occurrence probability as Hurricane Katrina, would bring 
immense economic impact by ceasing water deliveries to much of the 
state not to mention displacing hundreds of thousands of people from 
their homes. If a catastrophe of this magnitude were to occur, the 
fresh water conveyance for 2/3rds of the state's drinking water 
supplies would be lost for many years. Losing the Delta would be 
devastating to the 5th largest economy in the world. Existing storage, 
conservation and alternative sources of fresh water would simply not 
sustain the water demands throughout the state. A likely scenario would 
be the tremendous loss of agricultural lands as irrigation water would 
be transferred to urban uses.
    Approximately 400,000 people live in and around the Delta. The 
portion of the City of Stockton located within the Delta is protected 
from flooding by levees. These levees are well maintained and provide 
100-year flood protection per FEMA criteria. Immediately to the west of 
the City are the numerous tracts and islands which are protected by 
levee systems and comprise the heart of the Delta. These levee systems 
are critical to the efficient control of salinity intrusion from the 
San Francisco Bay, allowing the Delta to be the fresh water supply for 
23 million Californians. Although not currently drawing drinking water 
supplies from the Delta, Stockton will have its Delta Water Supply 
Project on line in 2010 to supply the metropolitan area with 35 percent 
of its current municipal and industrial needs.
    Except for 275 miles of federal project levees along the navigable 
channels, the Corps of Engineers has not inspected or rehabilitated the 
private Delta levees because they are not part of the federal levee 
system. In recent years the State has provided assistance through the 
Levee Subventions Program, matching 75% of repair and maintenance 
costs. That highly successful program ended in 2005. Assemblymember 
Lois Wolk (D-Davis) has introduced a bill to extend the Levee 
Subventions Program an additional two years and seeks greater funding 
for Delta levee maintenance. It is estimated that $1 billion dollars 
would be needed to repair and reinforce the worst 500 miles of Delta 
levees to minimum FEMA standards. Federal dollars are needed to 
supplement the Levee Subventions Program to maintain the Delta's 
viability to convey fresh water to pumps that serve 2/3rds of the 
State's population. Although the risk of levee failure will be reduced 
through ongoing levee maintenance efforts, it will never be eliminated.
Need For Immediate Funding For Upgrading Delta Levees
    Although the State and Federal interest and need for action to 
upgrade Delta levees has been clear for many years, significant State 
and Federal assistance has been basically limited to disaster 
assistance until 1984 when the State committed roughly ten million 
dollars per year to the State Delta Levee Maintenance Subvention 
Program.
    Federal interest in agriculture, commercial and recreational 
navigation, transportation, fish, migratory waterfowl, and fresh water 
supplies as related to the Delta is and has been clear, however, the 
non-disaster federal contribution to maintenance and rehabilitation of 
the non-project levees in the Delta has been directed primarily to 
studies.
There Is A Real Need To Secure Funds That Will Result in Immediate 
        Placement of Dirt and Rock On Existing Levees To Reduce The 
        Risk of Levee Failure
    The most effective way to accomplish this result is to contribute 
funding to the already ongoing State Delta Levee Maintenance Subvention 
Program which is administered by the State Reclamation Board through 
the California Department of Water Resources and California Department 
of Fish and Game.
Disaster Response
    Local agencies can help fight flooding but do not have the 
financial ability to repair a levee break, dewater the flooded areas or 
otherwise undertake major restoration work. Once a levee break occurs, 
the assessable base of the local agencies is of little value. This was 
the case in June 2004, when an unexpected levee break of Lower Jones 
Tract overwhelmed the local ability to respond. This single break cost 
nearly $100 million for emergency response, damage to private property, 
lost crops, levee repair, and pumping costs. The opportunity for 
possible reimbursement through currently structured disaster assistance 
or similar types of programs does not provide the cash necessary to 
accomplish the work. Given today's costs, only a state or federal 
agency has the financial capability to adequately respond to a Delta 
levee break. A plan for immediate response by a state or federal agency 
once a levee break occurs is essential to containment of the damages 
including the protection of the water supply. The plan should provide 
for immediate restoration of the levee and drainage facilities to the 
point that the local agencies can financially and effectively resume 
operation and maintenance. Emergency response regardless of the type of 
emergency should not involve a debate on policy. Immediate no holds 
barred response to arrest the threat should be the goal.
Federal Responsibility
    Due to the critical importance of the Delta levee system to the 
State's economy, the federal government should to take immediate action 
to channel federal dollars to supplement the Levee Subventions Program 
and the Corps of Engineers should be directed to take action to 
evaluate the future of the Delta, invest in levee repair and 
maintenance and develop an action plan to close levee breaks and 
dewater flooded areas in the Delta to minimize interruption and loss of 
water supplies for the federal Central Valley Project and other 
projects dependent upon the Delta.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Mayor. I appreciate your 
testimony.
    Next is Mr. Jonas Minton, Senior Project Manager for the 
Planning and Conservation League.
    Mr. Minton, welcome to the Subcommittee. You may begin your 
testimony.

STATEMENT OF JONAS MINTON, SENIOR PROJECT MANAGER, THE PLANNING 
       AND CONSERVATION LEAGUE, SACRAMENTO,   CALIFORNIA

    Mr. Minton. Good morning. Thank you all very much. I am 
Jonas Minton, Water Policy Advisor for the Planning and 
Conservation League.
    Now, you know that is an environmental organization. But my 
comments truthfully are also influenced by 30 years in the 
water supply and flood management business. I was a water 
agency manager. I was the executive director of a regional 
water forum. From 2000 to 2004 I was Deputy Director of the 
California Department of Water Resources.
    Flooding is also a personal issue with us. In 1997 our home 
on the American River flooded. Last New Year's Eve at 5 in the 
morning the sheriff pounded on our door telling us that we had 
another voluntary evacuation, and so that changed our New 
Year's plan.
    As you think about the Delta today, there are five points I 
am going to quickly go over for your consideration. We are 
talking about planning for a potential collapse catastrophe in 
the Delta.
    There is already a catastrophe in the Delta. As Vice Mayor 
Giovanetti pointed out, that estuary is the largest estuary on 
the West Coast of the United States. It is the largest estuary 
on the West Coast of the hemisphere.
    Now you heard at your earlier hearings that the pelagic 
fisheries, the open-water fisheries, have already collapsed. 
And that has relevance to water supply how?
    Here is the second point for your consideration. I like to 
think Mother Nature is a kindly, benevolent spirit. But we have 
also heard that there are real-world consequences when we 
ignore the physical laws of nature.
    Let us think back to Klamath in 2002. The decision was made 
to provide cold water deliveries for water uses in that basin. 
Now, four years later, we know that we are facing a crippling 
of these fisheries on the whole West Coast.
    Katrina, what happened there? They paved over the wetlands, 
that part of the ecosystem that buffers the natural resources. 
What happened? Storm surge came in. The lack of that buffer 
helped allow the leveling of New Orleans. Klamath River, we see 
what is happening there.
    The third point is that catastrophe planning is essential, 
but it cannot be done by nameless, faceless bureaucrats in our 
cubicles.
    Now, I am commending the California Department of Water 
Resources--and you will hear from Lester Snow--as part of their 
Delta visioning process, they are looking at how to openly, 
transparently involve the public, many users of the Delta, in 
catastrophe planning. So it is a real plan, a workable plan.
    The Metropolitan Water District of Southern California, 
which receives a portion of its water supply from the Delta, 
has already embarked on that process. They have a plan in place 
to deal with up to a six-month interruption in their water 
supply from the Colorado River or the State Water Project. And 
now with the information that this Committee and other forums 
have provided, they are extending their time period.
    We are unaware, and we look forward to hearing the 
testimony later in this hearing, what the Federal government is 
doing. The Bureau of Reclamation, the Corps of Engineers, the 
resource agencies, and FEMA. Are they undertaking a similar 
sort of inclusive, open process, where everyone knows what the 
plan is? We are unaware of that. We encourage you to ask them 
to conduct such planning.
    The fourth point, the peripheral canal. Not Joe, not John, 
but we will call it the peripheral canal. There is a natural 
feeling that perhaps this is the silver bullet answer. If the 
Delta is going to have problems, what do we do? Instead of 
getting water through the Delta, let us think about routing it 
around the Delta.
    Now, here are some things for your consideration. There are 
huge unknowns about a peripheral canal. How big would it be? 
How much would it cost? Who would pay for it? What would be its 
environmental impact?
    Now let me give you one more factoid, as reported in last 
month's Science Magazine. The proposed intake for the 
peripheral canal is at Hood, California. And certainly Mr. 
Pombo knows exactly where that is. That is at elevation 19 feet 
above current sea level.
    Science Magazine says with the temperatures that are 
predicted to occur from a variety of models, sea level rise 
could be as much as 20 feet. Any rise, even a fraction of that, 
severely compromises Hood as an intake point for the peripheral 
canal.
    Why don't you just move the intake up further? Well, that 
is going to get you right to the back side of the Sacramento 
Regional Wastewater Treatment Plant outpost, and I don't think 
we are suggesting that.
    The last point is where this goes. California needs a very 
reliable supply for both its ecosystem and our commerce, our 
people. The best way to ensure that reliability for our state 
prosperity is to increase investments in conservation, 
recycling, and groundwater cleanup.
    Attached to my testimony are excerpts from Governor 
Schwarzenegger's recently released updates to the California 
State Water Plan. It showed that to the year 2030, if we keep 
doing the conservation programs we are doing, even with an 
additional 12 million residents, California's water use would 
be slightly less than it is now. If we do conservation, it will 
be less.
    On top of that, the Governor's recently released water plan 
identifies about five million acre-feet of water conservation 
recycling and groundwater cleanup potential.
    In conclusion, we think the water supply reliability is 
very important. We think that there are some common-sense, 
cost-effective ways to achieve that.
    Thank you very much.
    [The prepared statement of Mr. Minton follows:]

           Statement of Jonas Minton, Water Policy Advisor, 
             Planning and Conservation League <SUP>1</SUP>
---------------------------------------------------------------------------

    \1\ Presented to the House of Representatives Subcommittee on Water 
and Power, April 6, 2006 by Jonas Minton j. For forty years PCL has 
been a leading environmental advocacy group in California. Over the 
past two decades PCL has sponsored and supported $16 billion in water 
and other resource bonds approved by California voters.
---------------------------------------------------------------------------
    I am Jonas Minton, Water Policy Advisor for the Planning and 
Conservation League. My comments today are also built upon my 30 years 
of experience in the water industry including serving as a water agency 
manager, executive director of a regional water forum and, from 2000 to 
2004, Deputy Director of the California Department of Water Resources. 
I have done a lot bricks and mortar projects in my career.
    Today I will quickly go through five key points you need to know as 
you think about the Delta.
    The first is that the Delta is already in a catastrophe. This Delta 
is the largest estuary on the west coast of not just the United States 
but the entire Western Hemisphere. And its ecosystem is collapsing. As 
scientists reported to you in your earlier hearing, the pelagic fish 
are at record lows and some are teetering on the brink of extinction.
    We would like to think of Mother Nature as a kindly, benevolent 
spirit. However the second thing we need to remember is that there are 
real world consequences when we ignore physical laws. Let's look at 
what happened in Louisiana. When they paved over the wetlands, they 
removed that natural buffer to storm surges. That helped let in the 
force that wiped out New Orleans.
    The Klamath River is an even closer analogy. In 2002 the decision 
was made to override the physical needs of the fish to allow large 
deliveries to agricultural customers. Now four years later the collapse 
of that fishery may very well shut down California's entire commercial 
salmon fishery and result in the loss of thousands of jobs. To compound 
the tragedy, it is now known that those levels of deliveries to water 
users in the Klamath Basin are not sustainable.
    Just as in the Klamath Basin, attempting to ignore the ecosystem 
collapse in the Delta will actually force reductions in water 
deliveries.
    The third point is that effective catastrophe planning is essential 
but it cannot be done by faceless bureaucrats in their cubicles. The 
Department of Water Resources is beginning to prepare a State 
contingency plan in conjunction with the public process for developing 
a Delta Vision. The Metropolitan Water District of Southern California 
already has a plan in place to manage a 6 month interruption in supply 
from the Colorado River Aqueduct or the State Water Project. They are 
now extending their plan to cover a longer outage.
    We are unaware if the federal agencies--the Bureau of Reclamation, 
the Corps of Engineers, FEMA and the fishery agencies--are cooperating 
on a federal contingency plan.
    Congress should direct those agencies to use an open and 
transparent process to develop the federal plan for reversing the 
existing ecological catastrophe and reducing the risk of reductions in 
water supply reliability.
    The fourth point is that the peripheral canal is not the silver 
bullet answer to the problems in the Delta. There is a natural 
inclination to think about a way to move water around, instead of 
through, the Delta. However the costs and environmental impacts of a 
peripheral canal are huge unknowns.
    Even the engineering feasibility of a peripheral canal is 
questionable. The suggested intake location at Hood, California is only 
19 feet above current sea level. Last month the journal Science 
published a study estimating that sea levels could rise by as much as 
20 feet. Any rise close to that level would leave the peripheral canal 
as a multi billion dollar stranded asset.
    All of this leads to the last, and most important point. California 
residents and our economy are dependent on a healthy ecosystem and 
reliable water supplies.
    The best way to ensure reliable water supplies and to relieve the 
existing environmental catastrophe is to reduce diversions from the 
Delta and increase conservation, recycling, and groundwater cleanup.
    I strongly recommend that you carefully review the new information 
in the Update to the California State Water Plan just released by 
Governor Schwarzenegger's Department of Water Resources. Attached are 
key excerpts.
    The State Water Plan shows that even with an additional 12 million 
residents by the year 2030, under current conditions continued total 
water use will actually be slightly less than current water use. And 
under a resources conserving scenario total use would be even less.
    On top of all that the Governor's Updated State Water Plan also 
identifies an additional 5 million acre feet of urban water 
conservation, water recycling and groundwater cleanup potential. These 
include a lot of bricks and mortar projects.
    In conclusion, the best way for dealing with highly likely risks to 
central and southern California water supplies and the current 
ecosystem catastrophe is to reduce Delta diversions and steer 
investments to the kinds of regional integrated projects that are much 
more reliable.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Minton. I appreciate your 
testimony. And I agree with you; I don't think the peripheral 
canal is the answer. Not only the flood threat, but I do 
believe that another project is the Auburn Dam, which was 
mentioned a little bit earlier from my friend, Mr. Costa, that 
if it weren't for dams on the rivers that feed the Valley and 
the Delta, we would be doing a rowboat from Bakersfield to 
Sacramento. And the only major river left in the area that 
doesn't have a dam on it is the American River.
    And what astounds me is that we can sit here and talk and 
whine and cry about the fact that we need to solve this 
problem, yet nobody really wants to go to the most cost-
effective answer, the most potentially contributing solution 
for Bay-Delta health, and the most cost-efficient means for 
preventing flooding in that area--the Auburn Dam.
    But let us all talk around it, and let us all talk about 
how we can't do it, and talk more about all these solutions 
that aren't really solutions, that don't give us the kind of 
benefit that we are looking for in a 500-year flood protection 
for the area. Let us just talk about other stuff.
    Thank you. I just had to vent that. That really just drives 
me nuts.
    But Mr. Sieglock, given that, doesn't the need, for 
example, in the floods we had in 1997, the fact that we have 
got a potential 1997 lurking in the Sierras, and with this warm 
rain season that we have got right now, this spring; doesn't it 
cry for the need for more water storage reservoirs?
    Mr. Sieglock. Absolutely. I would agree, Mr. Chairman, with 
your comment with regard to Auburn Dam and its need, enlarging 
the Shasta, Temperance Flats, the Water Project. I think all 
those are very much needed. I think they are very wise 
projects. I think they are good for the environment, not bad 
for the environment, and certainly would relieve substantial 
pressure off the Delta.
    So therefore, obviously it would be very helpful. And I 
think they are cost-effective, too.
    Mr. Radanovich. Well, it is. I think when you are looking 
at the numbers now, with the cost of repairing levees and the 
cost of razing Folsom Dam, you know, the Auburn Dam alternative 
is still the most cost-efficient. As well as all the other 
benefits it brings to solving this looming problem in 
California, it still is the most cost-efficient solution.
    This would be to all witnesses. We are facing a very tight 
financial situation here in Washington, but there should be 
some Federal intervention in helping prevent a levee disaster.
    What is the most cost-effective way, in your mind, to avoid 
a Katrina-like disaster in the Delta? All of you are able to 
answer, if you would like.
    Mr. Sieglock. Well, I think the most cost-effective way is 
to invest money today, and not wait for the disaster to occur. 
Let us not wait for a 6.5 or greater earthquake.
    And actually, I think your leadership today in having these 
hearings and highlighting this need to get Federal involvement, 
to get the Corps of Engineers involved.
    In addition to that, we have a Governor in California who 
is showing a willingness, through the bond process, to spend 
money and invest money in the Delta. So there appears to me to 
be a partnership that could develop between the Federal 
government and the state government, in investing money to pay, 
and not waiting 10 years, 20 years, waiting for the weather to 
get nice, until we forget about it.
    I think we need to be proactive, which we certainly are. 
And that we need to act now, and invest the money today. As my 
friend said, as Ben Franklin said and his mother said, an ounce 
of prevention is worth a pound of cure.
    Mr. Minton. If I might add, one concept that is achieving 
greater traction in the flood management community is the 
concept of stoutly defending areas. Urbanized areas need to be 
stoutly defended. Those levees need to be just about as strong 
as dams.
    However, we also note that in California, with our growing 
population, there is a need to house folks. Currently there are 
at least 100,000 homes in the pipeline to be placed in areas 
with inadequate flood protection, areas that have flooded 
repeatedly over the past several decades.
    There is not enough money to provide protection throughout 
the Central Valley, all those areas that are not yet developed. 
Funds should be focused on those areas that are currently 
urbanized. We have to ensure that our agricultural operations 
are protected to a reasonable level, that our large-priced 
facilities are there. But those areas that are currently 
urbanized--Sacramento, parts of San Joaquin County, Yuba City, 
Marysville, West Sacramento--they deserve that attention. That 
is where the largest losses would be.
    Mr. Radanovich. What kind of flood protection do you all 
want? Do you want 100-year flood protection, 200-year flood 
protection? Do you want 500-year flood protection for that 
area? People in flood control areas, what do they shoot for?
    Mr. Sieglock. Well, the standard now is 100-year flood 
protection, as dictated by FEMA. But I know in many parts of 
the country we are going to 200-year flood protection. And 
perhaps that is a question that needs to be debated. Is 100-
year enough, or do we need to go to a 200-year level?
    Mr. Radanovich. To my knowledge, it has been 500-year flood 
protection is what most parts of the area are shooting for.
    Mr. Sieglock. OK.
    Mr. Radanovich. Most of the other major cities are going 
500-year flood protection. I mean, how much flood protection 
can you get from having the strongest levees in the world right 
there in that valley doing nothing else?
    Mr. Minton. One of the misconceptions that came out of FEMA 
was that 100-year flood protection. My wife, who is in the 
audience, thought 100-year flood protection meant it wasn't 
going to flood for 100 years.
    Now what we really know is that when you have so-called 
100-year protection, it means every year you have one chance in 
100 that you are going to flood. And that means that you take 
on a 30-year mortgage----
    Mr. Radanovich. But you are not answering my question. I am 
saying if you reinforce the levees and do nothing else, you are 
only going to get, maybe you are only going to get 100-year 
flood protection or maybe a little bit more.
    Mr. Minton. At the most, two to maybe three hundred. The 
only solution to get 500-year flood protection in that part of 
the State of California is the Auburn Dam.
    While there has certainly been a lot of discussion in the 
past about Auburn Dam, even if you have Auburn Dam, you still 
have to do all those other actions.
    Mr. Radanovich. And you cannot get 500-year flood 
protection without the Auburn Dam
    Mr. Minton. You probably cannot.
    Mr. Radanovich. OK, thanks. Grace.
    Ms. Napolitano. Thank you, Mr. Chair. And along the same 
line of questioning, it is unbelievable to me that the new 
housing developments are allowed behind the levees, and you can 
actually see things going by in the river. And you think that 
levees that were built with peat moss by Coolie labor or 
whatever other kind of labor there was would have been 
protected to the degree that you would not endanger those 
people living in those homes.
    I am not sure where this would lie in, whether it is the 
local government or the state government that have allowed 
these housing to continue to blossom. Yes, you need housing, no 
question. But does it have to be right by the levees that 
potentially will not last if you have a 6.5 earthquake?
    And I would like to direct this to Mr. Sieglock.
    Mr. Sieglock. OK. Well, I think again we are meeting 
Federal standards with regards to our levee protection in the 
City of Stockton. And certainly if that standard rises, we will 
meet that challenge. And because of Mr. Pombo's leadership, we 
actually invested through the local government and some state 
and Federal government to keep up with those upgrades that you 
are discussing.
    I think it was said earlier that the whole valley right now 
would be flooded potentially if we didn't have offstream 
storage. So I think answers like Auburn Dam, the Moore River 
would all help in reducing that further up the Delta in 
providing greater flood protection to those areas.
    But we are meeting those Federal standards. We think that 
is important.
    Ms. Napolitano. Well, that still didn't answer my question, 
sir, I am sorry. But to me it is an area that you have already 
experienced levee breaks up and on through the years. You know 
they may continue, and the reports in the past have indicated 
that earthquakes could even make that even worse. I think my 
colleague stated that, Mr. Costa. It liquefies those levees, 
and you are going to have catastrophe. And yet you still are 
allowing housing in this area.
    I will move on, because that is just a point of contention 
with me. I lived in Sacramento for six years, and I saw a lot 
of the building going on at the time that I lived in 
Sacramento.
    Has FEMA ever offered training to San Joaquin County 
personnel? Anybody?
    Mr. Mow. Congresswoman, on your previous question, as we 
all know, the State of California has grown by 600,000 people.
    Ms. Napolitano. I can't hear you, sir, I am sorry.
    Mr. Mow. I am sorry. As we all know, the State of 
California has grown by 600,000 people. Much of that growth has 
to be accommodated somehow in the State of California.
    For San Joaquin County, 40 percent of the folks living in 
San Joaquin County will be behind some levees----
    Ms. Napolitano. I am talking about the training, sir. Has 
FEMA offered training to San Joaquin County personnel?
    Mr. Mow. I would say no.
    Ms. Napolitano. Addressing some of your potential levee 
breaks.
    Mr. Mow. At the state level.
    Ms. Napolitano. But not with the cities or counties?
    Mr. Mow. We have an Office of Emergency Services that works 
with FEMA, a representative to address any disaster.
    Ms. Napolitano. OK. But I guess what I am saying is, and we 
saw this in Louisiana with Katrina, is that the agencies were 
not speaking to each other. They were not able to take 
effective measures, because nobody knew who was doing what, or 
when, or where.
    Mr. Sieglock. Actually, we have very good coordination 
between our law enforcement officials, our emergency management 
departments. We probably have one of the better plans that we 
are aware of in the state. And I know that Mr. Baldwin works 
with FEMA on a regular basis.
    Since Katrina we have had a hearing on San Joaquin County's 
plight----
    Ms. Napolitano. Back to the question. Are they providing 
training to the personnel? That would be something that if 
someone could answer, but I think you should reply to the 
Committee on whether or not FEMA is working to ensure that 
everybody is on the same page should you have a levee break or 
a catastrophe of that magnitude.
    Mr. Mow. Right. They are wanting us to move to an operable 
analog system for communications in that regard, to have a 
better communication system in those areas that we don't want 
that to happen.
    Ms. Napolitano. OK. And very quickly, have you done any 
drills, along the same line of questioning? Any drills with 
FEMA or with the state agencies to address something of this 
nature?
    Mr. Sieglock. We are drilling regularly from what I am 
told.
    Ms. Napolitano. Thank you.
    Mr. Radanovich. Thank you, Ms. Napolitano.
    Mr. Sieglock. Ms. Napolitano, if I might mention, for the 
City of Stockton, our fire department is the first responder, 
and we do have regular drills.
    Mr. Radanovich. Thank you, Ms. Napolitano. Chairman Pombo. 
Mr. Calvert?
    Mr. Calvert. Thank you, gentlemen. First I would like to 
respond to the gentlelady's question that FEMA is not the 
responsible agency to provide training for the local first 
responders. It is up to the first responders to provide for 
their own training.
    It is up to FEMA to coordinate Federal assistance if in 
fact a catastrophe does occur. They would have to change the 
their policy to provide training to the first responders. That 
is not their job.
    But getting back to the Delta, Mr. Costa mentioned the land 
acquisition in the Delta, and I remember and I shared with this 
Committee that was somewhat of a controversial subject at the 
time. And we were involved in a couple of the major islands 
within the Delta, and some of the local folks I would say were 
reluctant to move toward that as part of the solution within 
the Delta.
    Is that changing? I just wondered if in the last few years 
if that has changed, because as we were looking at a through-
Delta facility, in concert with moving the CALFED bill, land 
acquisitions was something we set aside. Is there any comment 
about that from anyone? Is there any less reluctance today than 
there was in the past?
    Mr. Giovanetti. I would say that the attitude is about the 
same.
    Mr. Calvert. The other issue on the peripheral canal, has 
that changed? Again, when I was chairing this Committee, there 
seemed to be such a level of opposition that we just didn't go 
for it. That is why we went with CALFED and we developed the 
through-Delta facility. Did that change?
    Mr. Giovanetti. The opposition is still there.
    Mr. Calvert. So those facts haven't changed. OK. So 
assuming then that the land acquisition is not going to take 
place and that the peripheral canal is not going to be built, 
then we are moving forward with a through-Delta facility under 
the CALFED scenario. Then obviously there is levee problems 
within the Delta, and there are certain levees--somebody 
mentioned 500 miles of levees--that are prioritized for 
reconstruction.
    There is $90 million within the CALFED bill, $90 million of 
Federal funds that were meant to be matched with state and 
local funds, to be leveraged approximately three to one. If, in 
fact, the Federal government was able to appropriate those 
types of funds, are the state and locals willing and able to 
match those funds?
    Mr. Sieglock. I can't speak from experience, but again, 
Governor Schwarzenegger appears to want to address the issue 
through bonds. So it appears as if matching funds would be 
there from the State of California.
    Mr. Calvert. If, in fact, those funds were appropriated, 
say in the next couple of years, are state and local ready, in 
effect, to the point of planning to spend those dollars for 
levee reconstruction?
    In other words, if we went in and built the types of levees 
that are necessary to withstand a potential earthquake or 
catastrophe within the Delta, are you able to take the money 
today, even today, to spend the money to reconstruct some of 
those 500 miles of levees? Has the design work been done? Has 
the environmental documentation been completed?
    Mr. Sieglock. Actually, it takes a year to two years to get 
a permit to do levee repairs. And that is just from our side, 
on levees that we work on as a county.
    Mr. Calvert. So this 500 miles of potential levee 
reconstruction, how much has been done to get us to the point 
where we can start construction on those levees?
    Mr. Sieglock. Much work needs to be done.
    Mr. Calvert. Does anybody have a timeline as to when we can 
get the planning documentation done so we can actually, so I 
can go out there to Richard's district, and we can actually 
walk, get on a little tractor and go on across, and see pilings 
being put in and the rest? Anybody have any idea?
    Mr. Sieglock. Actually, we need that study.
    Mr. Calvert. Where are we at on that study
    Mr. Minton. It just started.
    Mr. Calvert. So now with the CALFED legislation, everybody 
is getting together in a room, the Corps of Engineers, Fish and 
Wildlife, Fish and Game, all the players. They are all working 
right now to do it.
    Mr. Sieglock. I can't say that. I haven't seen a kumbaya 
conference.
    Mr. Minton. If I may, one of your other witnesses, Lester 
Snow, I think will be a good respondent on that issue.
    Mr. Calvert. I understand that. But I wanted to hear from 
you, the locals, what you are hearing. Sometimes you guys hear 
things that are really going on sometimes that we don't know 
about. That is why I am asking the question.
    Mr. Minton. There are a couple things at the state level 
that Mr. Costa alluded to. We in the environmental community, 
along with cities, counties, and water flood managers, are very 
supportive of the state flood bonds, those elements that were 
providing free flood protection.
    Mr. Calvert. Are you in favor of the levee reconstruction?
    Mr. Minton. By and large, yes.
    Mr. Calvert. Thank you.
    Mr. Radanovich. Thank you, Mr. Calvert. Mr. Costa.
    Mr. Costa. Two questions, and not probably more 
appropriately than the Chairman did. But it was alluded to I 
think with Mr. Calvert in his discussion of the levees it 
doesn't seem to me that there is as yet clearly a delineation 
as to the status quo of the private levees, versus 
responsibility of levees by local districts, versus those 
responsibility of the state, versus those of the Federal 
government.
    For the somewhat 20 years I have worked on this, the state 
has put literally hundreds of millions of dollars, through a 
series of bond measures. So it is not like people have just 
been idle, sitting by. And I think Congresswoman Napolitano 
makes a good point when she talks about the responsibility of 
local government.
    There has been a moratorium in building in Sacramento as a 
result of trying to make sections of the levee in need of 
repair free from construction.
    And so it seems to me, before we talk about additional 
Federal dollars, which we, I think should do, and the state 
undertakes a bond measure, we need to get a clear idea of which 
levees are whose responsibility. And I don't know that that has 
clearly been vetted yet at this point in time.
    Do any of you want to comment on that?
    Mr. Sieglock. I agree with your comment that there are a 
lot of different interests that have different responsibility. 
And that is perhaps one of the issues, one of the problems, in 
terms of taking responsibility.
    Obviously a reclamation district would basically be 
composed of the farmers who own the land in the district. Maybe 
they can tax themselves $50 or $100 an acre.
    But with the kind of jobs you are talking about doing, you 
are not going to be able to tax them, they are not going to be 
able to raise enough money at $500 an acre, $1,000 an acre, 
because they wouldn't make any money.
    Mr. Costa. No, I understand that. Going with that I think 
is a cost benefit analysis that needs to be done.
    Mr. Sieglock. Right.
    Mr. Costa. You indicated that hasn't been done as it 
relates to which of these are not only whose responsibility but 
most in need of being rehabilitated.
    Mr. Sieglock. So that has not been defined yet. It needs to 
be.
    Mr. Costa. Right.
    Mr. Sieglock. And so getting to your question, though, 
while they may be reclamation districts, they are certainly a 
public interest relative to the Delta for all the reasons 
listed, which would suggest that perhaps that state and Federal 
partnership needs to be exercised.
    Mr. Costa. There is certainly a state importance to the 
Delta, for all the reasons that have been stated.
    Mr. Sieglock. Correct. Right.
    Mr. Costa. But it is, I think, inaccurate or, in my view, 
to put every island and every levee at the same level of 
importance, and that is why I still believe that there needs to 
be an evaluation.
    And I am not saying that we ought to buy up all the 
islands. I know that is the controversy for both Congressman 
Pombo and for Congressman Cardoza. But some of the islands I 
think where you have two or three landowners, if you were to 
offer them fair market value, they may be interested in 
selling.
    I mean, $100 million that we spent on Jones Tract, 8,000 
acres, I mean, you look at the tradeoffs. Even the Federal 
government doesn't have unlimited funds.
    Mr. Minton. If I might observe, I think your question even 
goes to a deeper problem, which is that in many areas of the 
Delta that are urbanizing, they may be protected by a 
reclamation district originally established to protect lands to 
agricultural standards.
    As that land converts to urban, they do not have the 
funding base to maintain even levees they have. They would not 
have the funding base to maintain new levees.
    Mr. Costa. Before my time is up, the California Association 
of Water Agencies headquarters has put up a proposal that I 
think has merit. I would like to get your thoughts on it. And 
that is to create kind of a like a blue-ribbon draft-like 
commission that would look at the various solutions that we 
have talked about: the through-Delta facility versus some other 
means of conveyance for the linchpin of our plumbing system.
    And then it would recommend it to whatever the best cost-
feasible alternative would be. And then the Legislature would 
have the option at that point to vote it up or down. Any 
thoughts on that?
    I mean, we have all dealt with these issues for years. The 
controversy will never, never, in my opinion, go away.
    Mr. Minton. The California State Legislature last year 
enacted Assembly Bill 1200, which calls upon DWR, Department of 
Water Resources, Fish and Game, to work with others to develop 
what you are in essence suggesting: a vision recommendation to 
the Legislature. We are very supportive of that process and 
hope that it succeeds.
    Mr. Costa. Well, my time is up, Mr. Chairman. But let me 
just summarize that that is good, but that is not new. We have 
been doing that for 40-some years. So how do we get off this 
paradigm is continuing to be--we are living on borrowed time.
    Mr. Sieglock. Again, we think the Corps study needs to be 
completed, identifying cost and identifying needs of the Delta, 
and talk about the environment. In some places, things have 
begun, but then they were not finished. Some of those things 
need to be completed so you can identify should it all be 
saved, is there one that shouldn't be.
    I mean, we have Franks Tract that was not saved for various 
reasons. But should all the islands be saved? And is there some 
higher and better use? Is there a less expensive way of going 
about dealing with those levees? Are there restrictions we 
should put on boating? I don't know all those answers, but some 
of those studies that were begun, I think we have some good 
information, they need to be completed.
    One thing we do know and one of my observations is when 
disaster does strike, the cost does become much greater, and it 
typically rests with the Federal government. You know, I thank 
you again. I compliment you for these hearings, and based on 
that, we need to get ahead of this problem.
    Mr. Radanovich. Thank you, Mr. Costa. Mr. Pombo.
    Mr. Pombo. Thank you. In response to some of the questions 
that have been asked, I think where we are right now is we have 
about $45 million worth of improvement work that has already 
gone through all of the process, the studies and all the 
permitting and everything else that can be done right now.
    The Army Corps is in the middle of doing their study on 
prioritizing which levees should receive attention first, based 
on what our greatest priorities are. And on those, as far as 
making a decision about which levees should be saved and which 
areas should be protected, I think it is easy for people to say 
that particular levee, let it go, and let that island flood, if 
they don't happen to own it and live out there. And that is 
where we get into a little bit of a different set of 
priorities, where we get into this, listening to my supervisors 
and the Vice Mayor from Stockton talk about what all of their 
problems are.
    Obviously these are issues that this Committee and other 
committees here are dealing with right now. But I think it is 
important for my colleagues to hear just what you are up to, 
and what some of the problems are.
    Obviously, if we had it to do all over again, we probably 
wouldn't have built in some of the places we did. But the 
reality is those houses are there, and we have to figure out a 
way to protect them.
    The Chairman of the Subcommittee, Mr. Radanovich, brought 
up the Auburn Dam. I don't think anybody can come to an answer 
that gives us the 500-year flood protection for the City of 
Sacramento without the Auburn Dam. That is just the pull-apart 
reality that is in front of us right now.
    The City of Sacramento, the City of Stockton have lower 
flood protection than any other major city in this country. 
There is no other major city in the country that is even close 
to what we have. In New Orleans they were talking about 500-
year flood protection. Most major metropolitan areas have a 
minimum of 500-year flood protection. And we are fighting to 
get 100 years in our area.
    The Federal government does have liability. Jones Tract has 
been brought up on a number of occasions. It cost us $100 
million in recovery and repair, in trying to bring back Jones 
Tract, and that was a sparsely populated area. Most of that was 
farmland. There were very few people left who lived out there.
    The cost of repair and recovery for a major metropolitan 
area like Stockton or the City of Sacramento would be in the 
billions of dollars. We are talking about getting a few hundred 
million dollars to begin the levee reconstruction work that 
needs to be done to protect those areas. A few hundred million 
dollars versus spending billions of dollars. That is the real 
choice that we are faced with here.
    Obviously, in 1997 we had flooding that was caused by heavy 
rain that melted snow. We are in the middle of heavy rain that 
is melting snow right now, and could have very similar results, 
if this continues to go the way it is. We no longer have the 
option of sitting back and not doing something about it.
    And I think Senator Feinstein, when she was out in the 
district talking about this a few weeks ago, had a very good 
point. And that was we know what our liability is, we know what 
the risk is that we face. We no longer have the choice to sit 
back and do nothing. And that is the choice that Congress has 
right now. And it is not if and when, but how fast can we get 
this done.
    I appreciate you being here and sharing your stories with 
the Committee. Obviously there are some different points of 
view, but when it comes right down to it, we have to do 
everything we can to protect those areas, to protect the 
citizens of this country. They happen to be my constituents, 
they happen to be Mr. Cardoza's constituents in this case. But 
it is our responsibility to do something about it.
    I thank you, Mr. Chairman, for doing this. I yield back my 
time.
    Mr. Radanovich. Thank you, Mr. Pombo. Mr. Cardoza
    Mr. Cardoza. Thank you, Mr. Chairman. In light of Mr. 
Pombo's comments that I totally agree with, I want to make 
mention of something that Mr. Minton said.
    You know, I don't support a peripheral canal. However, the 
concept you put forward of putting this trough near the exit or 
the effluent from the City of Sacramento into the river was an 
idea that I think deserves some consideration, because I think 
in these urban areas that receive this water, it is often easy 
to sit on high, and when you aren't threatened with the 
flooding, you aren't threatened with the challenges of raising 
the levees in the environment where the Endangered Species Act 
oftentimes doesn't let you do the work that you think you need 
to do to protect the population, I think maybe we should 
consider making the inflow for the California water projects 
near the effluent, because only then would they understand that 
water quality is truly something that we have to deal with. It 
may be a concept that we need to look at.
    I want to go to Mr. Giovanetti's testimony and look at how 
did you arrive at the $1 billion cost estimate for repair and 
maintenance of the Delta levees?
    Mr. Giovanetti. There was a recent Army Corps of Engineers 
study that estimated the $1 billion amount.
    Mr. Cardoza. What is Stockton doing with regard to levee 
repair and maintenance and construction in the flood plain?
    Mr. Giovanetti. We are no longer allowing construction in 
the flood plain. We are also doing our best to assist 
reclamation districts by recently we loaned $400,000. TEJAFCA, 
as I mentioned in my testimony, was a project where the 
citizens assessed themselves for $70 million to get us to at 
least the 100-year protection. And we are still working on 
reimbursement for those funds.
    One of the developers is voluntarily looking at a 300-year 
flood protection.
    Mr. Cardoza. I am familiar with that, Mr. Giovanetti. And 
it makes, you know, as I look at what has been happening, and 
there certainly is incredible growth happening in our part of 
the central Valley. But as I look at some of the new 
developments, it is actually the new developments that are 
putting in the most responsible levee systems, and the vast 
majority of the property that is vulnerable were built many 
years ago and before you and I or either an officer had any 
responsibility and I might mention was during a period of time 
when it was assumed that the Auburn Dam would be built.
    And so it was based on changes of decisions that happened 
here in the Federal government and the state government or were 
ramifications to actions that are now being criticized here 
that actually may have precipitated some of the problems.
    Mr. Giovanetti. I agree.
    Mr. Cardoza. Mr. Sieglock or Mr. Mow, would you like to 
comment along these lines as well? To what San Joaquin County 
is doing with regard to building in flood plains and what you 
are doing along levy restoration work.
    Mr. Sieglock. Again, with the county technically in the 
unincorporated area, we are not seeing building in that regard, 
and if we do, then they have to meet standards so they are not 
in the flood zone, that we are in a flood plain. From our 
perspective on LAFCO, we make sure that those standards are 
being met if new annexations occur again so they are not being 
built in a flood zone or in a flood plain.
    A number of the developments that are being required to 
meet a much higher standard are voluntarily meeting that 
standard because the public demands that as well, so I think we 
have been very proactive.
    Again, the SOJAFCA effort was a model effort for improving 
flood protection in all of Stockton to bring those levies up, 
so that was local participation along with the state and 
Federal government. So it is certainly something we like to 
see, and it is perhaps time to evaluate a higher standard. We 
are a smaller community than Sacramento or some other areas, 
but maybe you are talking about adding a foot to get the 
additional protection. I don't know.
    Mr. Mow. Just on the growth in San Joaquin County would 
involve some danger from flooding, and that is a fact. And our 
county continues to grow. We are looking at holding developers 
responsible for levee construction to bring them up to a higher 
standard. And I think that is something that most communities 
in our county.
    Mr. Cardoza. I know my time is up. I know we have to go 
take a vote on the Floor in just a moment, but I wanted to make 
one more point in response to a question that Ms. Napolitano 
made earlier.
    And that is that there is a request that is being 
coordinated between our counties, Stanislaus County and San 
Joaquin County, to try and put together an inoperability plan 
for communications. And it would really be very important for 
this Committee and the Members who sit on it to help us work on 
that, because frankly, the quicker we can respond to dangers or 
breaks, the quicker that we can make sure that Southern 
California's water does not become vulnerable.
    If we can fix these levee breaches, we see that the quicker 
we can respond, the less damage. They tend to widen with time, 
and the quicker we can get on this and respond to these 
damages, the better we would all be in trying to make sure that 
the Delta remains as safe as possible and the water supply 
remains as continuous as possible.
    So with that, I would just make that point.
    Mr. Radanovich. Thank you, Mr. Cardoza. We appreciate your 
questions. Ms. Napolitano and I have a couple of more.
    But can I get a sense from the panel? When we are talking 
about either a through-Delta facility or a peripheral canal, we 
are not really talking about so much flood control as we are 
the ability to convey water out of the Delta and Bay Delta 
health. It is really more of an issue of water conveyance and 
Delta health. It is not so much an issue of flooding when it 
comes to a peripheral canal or a through-Delta facility. Is 
that right?
    Mr. Cardoza. I would say that is a fair statement.
    Mr. Mow. I would say it is a combination of all of that. It 
is flood protection for 600,000 folks that will be living in 
our county.
    Mr. Radanovich. How would that be flood protection? I am 
not sure I get that. I do not see the flood protection aspect 
that much from something like a peripheral canal.
    Mr. Mow. The levee obviously has protective value for the 
citizens that reside in our county. As a result of that, the 
integrity of the levee is important.
    Mr. Radanovich. Right. No, I understand the importance of 
levees. But as far as a peripheral canal or a through-Delta 
pumping, that you are really talking about ease of conveyance 
and Delta health, right? I mean, there is pretty much agreement 
on that, right?
    Mr. Minton. But it also backs into the question of flooding 
in this way. And you would be familiar with this. Just 
colloquially speaking, if there is a peripheral canal, there is 
a lot of concern that the Delta levees will be abandoned, that 
there won't be the interest in Southern California.
    Mr. Radanovich. That is OK. I don't want to get there. I 
just want a common understanding that a peripheral canal or 
through-Delta pumping speaks mostly to conveyance and Bay and 
Delta health.
    When you are talking about flood control, you are talking 
about levees, and you are talking about either raising Folsom 
Dam or building Auburn Dam, right?
    Mr. Sieglock. For the Sacramento region. But then also that 
is a great point. It reduces pressure on the Delta. So instead 
of having the water 15 feet high, maybe it is 12 feet high, 
taking the pressure off. So with an Auburn Dam, with an 
expansion of Folsom, with an expansion of Shasta, with the 
Moore River Water project, et cetera, you are taking pressure 
off the Delta, which takes pressure off the levees, which helps 
reduce flooding.
    Mr. Radanovich. OK. Thank you very much. Mrs. Napolitano.
    Ms. Napolitano. Well, that brings up an interesting point 
and an interesting point of view in regard to the possibility 
of the peripheral canal being able to be not only a conveyance 
but also assist in lowering that levee pressure. Am I correct?
    Mr. Sieglock. I don't believe so.
    Ms. Napolitano. No?
    Mr. Sieglock. The peripheral canal is simply a----
    Ms. Napolitano. Conveyance.
    Mr. Sieglock.--conveyance facility. I don't necessarily see 
it reducing pressure on the Delta.
    Mr. Minton. The flows in the Delta peak at about six, 
700,000 cubic feet per second. A peripheral canal might be 10 
or 20 thousand, so it is not going to take a lot of that water 
pressure off those levees unfortunately.
    Ms. Napolitano. I see. OK.
    Mr. Sieglock. It is not a water storage facility, it is a 
conveyance facility.
    Ms. Napolitano. Conveyance, right.
    Mr. Sieglock. That would be the difference between taking 
pressure off or just kind of adding to the switching station.
    Ms. Napolitano. OK. Well, my colleague over here is asking 
for the help of the Committee on looking at how we can support 
the issue of the working together of the counties. And also 
before that, you mentioned sending the water just near the 
Sanitation--I call it Sanitation.
    Mr. Cardoza. It was a facetious comment.
    Ms. Napolitano. So don't mix them. And I must remind you 
that we do have the voters in Southern California. At least 
half the population resides in Southern California, where we 
have the wherewithal to vote bonds in or out. And if you 
mention that you are going to have that kind of facility close 
to that kind of a plant, I think you are defeating the purpose 
of being able to inform and educate our people.
    Mr. Cardoza Will the gentlelady yield?
    Ms. Napolitano. No. I just want to continue moving along 
because I do have a couple of questions for Mr. Giovanetti, the 
Vice Mayor of the City of Stockton. And that has to do with 
your statement on page 2, whether you are indicating there is a 
real need to secure funds that will result in immediate 
placement of dirt and rock on existing levees to reduce the 
risk of levee failure.
    Will this repair address the structural problem of the 
levees? And will more dirt and rock be of much help if we do 
have a 6.5 earthquake in the Delta?
    Mr. Giovanetti. I don't believe that we can protect for a 
6.5 earthquake. What we are looking for is the rock as a 
barrier to prevent the seepage of water through these earthen 
levees. If we don't add the protection, they are only as strong 
as their weakest link. To be honest, I could not say that we 
could protect for a major earthquake.
    Ms. Napolitano. I see. And again, we go back to the issue, 
and I am sorry Mr. Pombo isn't here, because my asking whether 
FEMA has involved the City of Stockton in planning for the 
possible catastrophe is more of working together to address the 
agencies being on the same page of what can be done to prepare 
and to protect.
    Mr. Giovanetti. Yes. As I stated earlier, our first 
responders are the fire department, and they do communicate 
with FEMA.
    Ms. Napolitano. Thank you. To Mr. Minton, is it too late to 
restore some of the natural ecosystems in the Delta that once 
helped buffer the floods?
    Mr. Minton. No. There are going to be changes in the Delta 
inevitably. It is not the same as it was 100 years ago or even 
10 years ago.
    The real challenge is how do we adapt to these changes, 
including sea level rise. Things are going to happen. What is 
our process for seeing what is going on, making sure the people 
are protected, that water supplies or substitutes are 
developed, and that the ecosystem is restored as well as it can 
be. I think those will be the factors in the solution.
    Ms. Napolitano. We have read in the testimony that MWD is 
already addressing a six-month possible dependency on the water 
should a catastrophe happen. Can the water supply agencies do 
more to decrease their dependence?
    Mr. Minton. According to Metropolitan Water District's 
recently released Urban Water Management Plan, there are a host 
of actions that they can take to increase their local self-
sufficiency. They are called integrated resources planning and 
management where instead of getting rid of floodwater locally 
as fast as you can, dealing with it as a problem, you say wait 
a minute, that first 12, 24, 36, 48 hours of rain, let us find 
ways to let it soak into the Southern California aquifers to 
recharge those as sources of supply. So there are a variety of 
things that they are looking at.
    Ms. Napolitano. Thank you, Mr. Chair. I think that will do 
for this round.
    Mr. Radanovich. Thank you, Mrs. Napolitano. Mr. Cardoza, 
any other further questions?
    Mr. Cardoza. Yes. Actually, just to clarify, Mr. Chair, my 
statement earlier since I wasn't able to get a yield earlier. 
The point was that the absurdity of the statement of trying to 
put a water system or a drinking water system next to a 
treatment plant was the point.
    It is equal to the absurdity that we sometimes face of 
having others put regulations on us when we sit in the Valley 
and the Delta area and are subject to flooding or dangers 
because of external concepts that folks on high don't have 
those dangers are exposed to. That was the point of drawing 
those conclusions.
    And one of the things that I also wanted to make a 
statement about, and I will let the panelists discuss if they 
would like, is that we talk about the challenges of doing these 
improvements because we in fact want to help our residents, and 
it is our obligation to help those who live in danger in our 
communities, and we want to make the necessary repairs.
    And when we feel constrained by different factors, 
including regulatory factors that are engaged the Endangered 
Species Act or other challenges that we face in communities, 
those are real dangers to the same kind of citizens that we 
represent as would be endangered through polluted water.
    So those are the points I was making, and I will leave it 
to the panel to extrapolate any further on any of those 
statements.
    Mr. Giovanetti. I would like to make a couple of 
statements. I would like to start by underscoring Chairman 
Radanovich's comment.
    Of 100 percent of the watersheds in the State of 
California, 2 percent is used by residential/commercial, 7 
percent is used by agriculture. A third of the watershed 
evaporates. We don't have a water supply problem in California, 
we have a water storage problem.
    To the comments by Congressman Cardoza, the City of 
Stockton discharges their sewer treatment plant into the San 
Joaquin River. The quality of that water is good enough to swim 
in.
    We have just recently received our permit. We have 
perfected water rights such that we can actually pull water 
downstream from our discharge. We will then pipe it to a water 
treatment plant and serve it back to our community. So the 
concept is not as absurd as it may sound because the City of 
Stockton is in the middle of satisfying our growth for the 
future with our securing of the water rights.
    Mr. Minton. Mr. Cardoza, I am very sensitive to your 
concerns. At 30 years in the bricks-and-mortar water business, 
trying to do projects to benefit the public and the 
environment, it is very hard.
    At the same time, there are successes out there. 
Sacramento, which has 14 dams above it on the American River 
already, there are 14 dams, through the able assistance of 
Members of Congress, we supported the raise of Folsom Dam, 
improvements to the levee, reoperation of the facilities.
    At the same time, they have been able to incorporate 
environmental improvements into it such that everybody is 
getting together, and the local residents have, through a 
Proposition 213 election, said that we will put our money up 
for those multi-purpose projects, and I think that is the way 
to go.
    Mr. Cardoza. I think you are right, Mr. Minton.
    Mr. Mow. We have spoken considerably on water conveyance 
and flood protection for folks, but there is an agricultural 
economy there as well that is a big part of the levee system in 
San Joaquin County. And the values of the crop, our food for 
our nation is of importance as well. Thank you.
    Mr. Radanovich. I appreciate your comments with the local 
community wanting to see the Delta preserved and protected and 
the levees to remain in place. And actually, we haven't talked 
about it a lot, but if you let the islands go, then the wave 
action can cause then an impact to those levees that are 
protecting Stockton, so we look at it as all being related 
together.
    And so there is great importance to the public safety for 
maintaining those islands, regardless of the fact that they are 
not filled with residences, that there is an indirect impact 
that can become a direct impact.
    But if you have never been on the Delta to any extent, I 
would invite you on a tour. I am sure Congressman Pombo and 
Congressman Cardoza would love to take you on a tour if you 
have not have that chance. It is something you can see by a 
car, but until you get on a boat and tool around, there is 
nothing like it. I used to go water skiing for three or four 
years, and I was 50 pounds lighter at that time.
    Mr. Cardoza. Mr. Chair, if I may, I would just like to 
thank the panel and those folks that are in the audience that 
have come from Stockton for this very important issue.
    Mr. Radanovich. Thank you, Mr. Cardoza. And I just don't 
want this session of the panel to go without reiterating that 
we can't really address flooding in this part of California by 
solely addressing the levees; we have to talk about storage as 
well, and that needs to be a part of the solution.
    Thank you very much for your valuable testimony. And with 
that, I will call up the second panel. And it consists of 
Brigadier General Joseph Schroedel, the Commander and Division 
Engineer with the U.S. Army Corps of Engineers; Mr. William 
Lokey, Operations Branch Chief with FEMA; Mr. Kirk Rodgers of 
the Mid-Pacific Region of the Bureau of Reclamation; and Mr. 
Lester Snow, the Director of the California Department of Water 
Resources.
    [Pause.]
    Mr. Radanovich. OK, thank you for seating yourselves. I do 
want to state that we expect two votes on the Floor at any 
time. I think what I would like to do is go ahead with the 
testimonies of each of your witnesses, and at some point in 
time we may have to break and go and vote and come back and 
resume the hearing. But we may have that break, depending on 
when the vote bells go off. So if you hear the bells, you will 
know what it is all about.
    Again, welcome to the Subcommittee. Each witness has five 
minutes to expend your knowledge. And thank you for making 
yourselves available for questions after that.
    So Brigadier General, welcome to the Subcommittee. And you 
may begin. We will go right on down the line.

STATEMENT OF BRIGADIER GENERAL JOSEPH SCHROEDEL, COMMANDER AND 
 DIVISION ENGINEER, SOUTH PACIFIC DIVISION, U.S. ARMY CORPS OF 
              ENGINEERS, SAN FRANCISCO, CALIFORNIA

    Brigadier General Schroedel. Mr. Chairman, Committee, and 
other folks here, I would like to start by thanking you, as a 
soldier, for the support that you or anyone else in earshot has 
given to men and women in uniform, and civilians, for serving 
our great nation and at least 120 countries around the world 
today, fighting other fights on behalf of our nation.
    I also want to thank you for the opportunity at the same 
time to be a part of this team effort to solve the problems in 
the great State of California as a Federal partner on this 
team, as we fight the fights there, and find a way to bring 
Mother Nature on our team.
    What I would like to do is recognize a couple of folks I 
have with me. So folks in this room, you will see them again, 
they are important people.
    Mr. Mark Charlton, who has extensive experience in the 
Sacramento District, is now serving on my staff in San 
Francisco. He will continue to help pull together the efforts 
and the link with other agencies in the state, local, and 
Federal family.
    I would also like to recognize Ms. Lynn O'Leary, who is our 
Project Manager on the Delta Project, and has 17 years' 
experience. I can't even begin to match her knowledge and her 
experience in the Delta.
    And then also Ms. Chris Altendorf. Chris, who was just 
recently selected to be the Deputy for Program Management in 
the Sacramento District. So she will be intimately involved 
with the entire family here to help solve the problems.
    With that, I would just like to make a couple of points. I 
appreciate your accepting my statement for the record, but I 
would like to emphasize a couple of points up front, if I can.
    First of all, the Corps continues to be engaged very 
heavily on two fronts in the state. The first front is solving 
the immediate problems in trying to correct the erosion 
problems, trying to correct other issues that we know will help 
on the protection side.
    Likewise, we are engaged intimately in the planning 
process, which we can talk about a little bit more later, a 
long-term plan. If there is any message that I would like to 
leave, it is this. We have talked about, we have studied about, 
we have done a lot of that kind of thing on these problems. It 
is time for action. It is time to stop talking. It is time to 
stop studying. It is time now, not 10 years from now, to have a 
long-term strategy that is a decision that leads to action, not 
10 years from now, but now.
    The second point, and again, we are engaged in supporting, 
as a member of this team, in every way that we are authorized 
and appropriated to do so, and even beyond. We are offering 
technical assistance as we speak today on our own nickel to 
help with the current flood situation.
    Second, there are three phases, in my view, to these 
operations. First there is preparation. Second is response. 
Third is recovery.
    As FEMA's Federal Engineer, if I can cast our roll that 
way, on the response side, as a part of the national response 
plan, yes, we focus heavily on response and recovery. We focus 
on how do we respond to a catastrophe. That gets back to my 
first point.
    We have got to do the first part first, which is the 
preparation piece, which can only be solved by deciding the 
long-term plan now. And I would tell you, I have talked to 
owners of the islands, I have talked to many, many people out 
there. Some people say that people in California are ready for 
that discussion.
    My view is now is the time, in the wake of Katrina, to have 
that discussion, because the people will listen. We have got to 
engage the people now to get them on the team. It is one thing 
for those of us here at the table here to be on the team, but 
it is quite another to make sure that we have got the people of 
the state engaged, as well. So we are here to support all of 
those efforts. We can build Auburn, we can do whatever needs to 
be done. We just need to be authorized and appropriated, and by 
God, we will do our part for the team.
    The last point I would make is, as you know, the CALFED 
180-day report draft is on the street. I am proud to report to 
this Committee, and to other Members of Congress, that we will 
meet our 18 May deadline and provide that report.
    I want to make sure that everybody understands what that 
report is. Basically, we were allowed to go out and ask for 
input. And I am not convinced that we got all the input we 
need. So that is another one of those short-term-fix, not-
quite-all-there kind of solutions, if I can kind of cast it 
that way.
    And then second, we will talk, and I encourage your further 
discussion on the Delta islands and feasibility study and the 
DRMS, because I think that is the key to solving the long-term 
problem now.
    So again, we are here. We believe we are responsive. We 
believe we are well integrated with this team, and we are proud 
to be a part of this team.
    Thank you very much.
    [The prepared statement of Brigadier General Schroedel 
follows:]

    Statement of The Honorable Brigadier General Joseph Schroedel, 
    Commander, South Pacific Division, U.S. Army Corps of Engineers

Introduction
    Mr. Chairman and distinguished members of the Subcommittee, I am 
Brigadier General Joseph Schroedel, Commander of the U.S. Army Corps of 
Engineers South Pacific Division. I am honored to be testifying before 
your committee oversight hearing today on ``Protecting Sacramento/San 
Joaquin Bay-Delta Water Supplies and Responding to Catastrophic 
Failures in California Water Deliveries.'' This is an important topic. 
If you take away one message from my testimony, I hope it will be this: 
Both short-term actions and long-term solutions are essential to 
confront this issue. We need to take action now to address critical 
needs and reduce the threat of catastrophic failure or we risk allowing 
a failure to determine our actions. At the same time, we need to work 
with our federal, state and local partners to develop the system-wide, 
long-term strategy.
Background
    Since I last testified before you in October 2005 regarding the 
Corps' efforts to reduce the risk of flood damage to the Sacramento/San 
Joaquin River system, the Corps has undertaken a full-court press to 
prepare the ``CALFED Levee Stability Program Report to Congress.'' The 
Corps is required to submit the report on May 18, 2006 in accordance 
with the Congressionally mandated 180-day requirement. I am happy to 
report to the Committee that we are on schedule to deliver the report 
on time.
    Before I discuss the details of the report, let me characterize the 
Corps' assessment of the situation in the Delta.
    As the hub of California's two largest water distribution systems, 
the Sacramento-San Joaquin Delta supplies drinking water to more than 
22 million people and irrigation water to millions of acres of highly 
productive agricultural land. It is a haven for 750 plant and animal 
species and home to hundreds of thousands of people.
    Yet this valuable resource is inadequately protected by an 
extremely fragile levee system that threatens to fail at any time, even 
under fair weather conditions. Unlike other levee systems that protect 
against high water events, the Delta's maze of mostly non-federal 
levees must work all day, every day to keep water from inundating 
people living below sea level. In fact, these islands are often 
referred to as ``bowls.'' The levees that make up the rims of these 
bowls are part of the State-wide water conveyance system, yet have 
suffered as local reclamation districts have not been able to properly 
maintain them due to a lack of local resources.
    During the last century, there have been 162 levee failures in the 
Delta that led to major inundation of islands, regardless of the 
weather conditions. These have been costly, as illustrated by the 
recent Jones Tract levee failure in June 2004, which occurred without 
warning during fair weather, inundating 12,000 acres of property and 
causing an estimated $100 million in damages.
    Congress recognized the threat and cost of these serious levee 
failures and directed the Corps to deliver a report that prioritizes 
potential levee stability projects in the Delta. The CALFED Bay-Delta 
Authorization Act (Public Law 108-361) authorized using up to $90 
million dollars in Corps funds through 2010 to implement these 
projects. The Corps invited Delta stakeholders to submit proposals 
addressing critical levee improvement needs.
    In response, Delta area reclamation districts and flood management 
agencies submitted more than 54 project proposals totaling more than $1 
billion in estimated costs.
    We evaluated the proposals based on the extent to which they would 
reduce the risk to life, health and safety, urban and agricultural 
properties, and strategic infrastructure for transportation, utilities 
and water supply. The report currently being prepared has identified a 
preliminary list of potential projects, consistent with Section 205 
authority, that could be considered in future Administration budget 
requests to further CALFED goals. It is important to note that any 
selected projects would require site-specific design and environmental 
compliance work before construction.
    While the Corps' Delta Report to Congress provides a prioritized 
list of projects that can be accomplished in the near-term with the 
help of federal funding, state, local and federal stakeholders in the 
State of California will need a long-term vision for the Delta before 
we can truly tackle the monumental task of providing comprehensive and 
systematic flood management to this region.
    The Corps' long-term strategy will be developed in the Sacramento-
San Joaquin Delta Islands and Levees Feasibility Study. This 
comprehensive study will address all CALFED objectives and assess 
existing and future flood risks in the Delta as well as water supply 
needs, ecosystem restoration and recreation. Scheduled to begin this 
year, the study will provide a comprehensive vision and roadmap for 
future federal participation in the Delta. The study will incorporate 
the California Department of Water Resources' Delta Risk Management 
Strategy (DRMS), which will quantify risks and potential impacts and 
develop a risk reduction strategy. The feasibility study will build 
upon the DRMS to address remaining levee stability work beyond the $90 
million federal effort authorized in the CALFED Act.
    This report is the first step in a multi-year effort to address 
levee stability concerns in the Delta region; however, both short-term 
actions and a long-term strategy are essential.
Emergency Preparedness
    Mr. Chairman, the Committee also raises the question of whether 
local, state and federal authorities are prepared to respond to a 
Catastrophic Failures in California Water Deliveries. The Corps and 
Federal Emergency Management Agency (FEMA) are working with the state 
to remedy the fact that right now most northern California communities 
do not have an updated assessment of their flood risk. Flood plain maps 
are often out of date by 10, 15, and even 20-years. They rely on old 
geotechnical data, and understanding of flood risk, under seepage, and 
levee performance, which has changed in recent years. In 2004, the 
Corps developed new procedures for how we need to assess levees for the 
deep under seepage in the Central Valley. That knowledge will help us 
evaluate levees with these updated technologies. We will work with FEMA 
and the State to help ensure that local communities have updated, 
accurate assessments of their flood risk.
    The Corps also needs to update its emergency response plans and 
practices to optimize effectiveness and efficiencies given what we now 
know about California levees and the potential for multiple failures 
during a major earthquake event. While the State and local agencies are 
responsible for the first line of defense and responsiveness in 
emergency actions, the Corps is ready to assist in flood fighting, 
provision of emergency water supply and other activities in cooperation 
with non-federal entities when called upon. We need to update and 
clarify roles and responsibilities, and enhance communications and 
public education.
    The innovative Silver Jackets program, which relies on funding from 
our Floodplain Management Services (FPMS) and Planning Assistance to 
the States (PAS) programs, combines the knowledge and programs of FEMA 
and the Corps, and this year has started building that relationship in 
California. This program is the meshing together of Federal, state, and 
local hazard planning and mitigation activities along with improved 
processes for emergency response and recovery.
    This concludes my statement. Again, I appreciate this opportunity 
to testify today. I would be pleased to answer any questions you may 
have.
                                 ______
                                 

 STATEMENT OF WILLIAM LOKEY, OPERATIONS BRANCH CHIEF, RESPONSE 
DIVISION, FEDERAL EMERGENCY MANAGEMENT AGENCY, WASHINGTON, D.C.

    Mr. Lokey. Thank you very much. Good morning, Mr. Chairman, 
Members of the Committee. My name is William Lokey. I am the 
Chief of the Operations Branch of the Response Division of 
FEMA.
    Also with me today is Ms. Nancy Ward, who is the Response 
and Recovery Division Director from FEMA Region IX in 
California, who had a lot of hands-on with the participants 
here today, and can address particular needs and specifics.
    I plan to cover three topics. The first one, very briefly, 
FEMA's general authority to mitigate, prepare, respond to and 
recovery from disaster; our role and activities in emergency 
planning in California, and the specific response we have done 
to the Governor's request for a Presidential Declaration for a 
potential levee break in six Central Valley Counties.
    FEMA derives its authority from the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, the Stafford Act, 
as amended. Simply put, this provides the authority for 
mitigating the effects of disaster, the authority for 
preparedness planning, including training, with our Federal, 
state, local, and private-sector partners, the authority for 
the Federal response, the authority for our recovery programs, 
and the authority for the Federal coordinating officer.
    Under our mitigation grant programs, we have three disaster 
mitigation, flood mitigation assistance, and our post-disaster 
effort mitigation grant program provides funds and technical 
assistance to develop state and local plans for mitigation that 
identify cost-effective projects.
    The role of FEMA and other Federal agencies, state and 
local and private-sector partners is further outlined in the 
National Response Plan, the nation's all-hazards plan for 
establishing a comprehensive system, including training, 
exercise, and planning, as well as response and recovery, for 
our nation.
    FEMA Region IX continually supports all hazards emergency 
planning, and has a close relationship with California state 
officials and local officials in conducting both general and 
incident-specific planning.
    As an example, they have been working with the Federal, 
state, and local officials in Los Angeles to develop a 
proactive approach to a Federal response in case of a major 
incident. Many of the concepts here have broader applications 
statewide to planning efforts in response to a levee break.
    This particular effort also has contributed to the national 
effort in catastrophic planning. Specifically after our 
experiences from Hurricane Katrina, concepts of pushing 
resources forward instead of waiting for them to be requested 
are being strengthened and updated.
    Every other month they meet with the Regional Inter-Agency 
Steering Committee, which are Federal partners in working on 
planning issues. And also included in that are state officials 
as appropriate.
    Under the Stafford Act, we are authorized to supplement the 
efforts and make available resources to state and local 
governments and disaster relief organizations for an emergency 
or disaster declared by the President.
    We can lean forward and move Federal assets, commodities, 
and equipment and teams to Federal facilities to increase our 
preparedness. But we can't actually provide assistance under 
the law until the Governor has asked, certifying it is beyond 
the state's capability, and the President has approved the 
declaration.
    The response to any emergency in California, including a 
massive levee failure, would be under the auspices and 
authority of the State of California. They have a very capable 
and professional Office of Emergency Services and State 
Emergency Management Network, and it is a tried-and-true 
program of mutual aid that they have developed over the years. 
They are quite good at what they do.
    I also need to point out that FEMA has no direct role in 
the maintenance of levees, although we certainly are a partner 
in the planning for the eventuality of problems.
    Levee maintenance and flood fighting are primarily handled 
at the local level through local maintenance agencies and 
through the Corps of Engineers providing technical assistance 
and flood-fighting and assistance like that under their own 
authority, which can be done without FEMA and without the 
authority of the Stafford Act.
    The California Office of Emergency Services is responsible 
for the overall management of emergencies and coordinating 
resources in the state with other partners like the Department 
of Water Resources, who I believe is talking today. They are 
the ones mainly responding to what is going on now due to the 
flooding in some of the California areas.
    In the event of a major failure of a levee, the Stafford 
Act, if it were implemented on request of the Governor, we 
would provide supplemental assistance to the State of 
California and their local governments under the National 
Response Plan.
    And a lot of the planning we have done to get ready for 
this year's hurricane season will apply with respect to the 
moving of resources, evacuation, search and rescue, and things 
like that that we might get asked to do.
    As part of the planning effort and consistent with the 
other plans, we are working to improve Federal support to 
emergency management, streamlining contracting procedures, and 
establish regular and ongoing activities and communication 
among the partners.
    Current contingency planning is underway as a result of the 
request of the Governor for an emergency declaration in six 
Central California counties and Region IX. And California OES 
staff have been engaged with a number of Federal, state, and 
local partners doing contingency planning for this eventuality.
    They are conducting assessments, identifying capabilities 
and shortfalls, and developing a regional plan to provide a 
proactive response for the 24 sites of interest identified by 
the Corps of Engineers. This plan is still in development, the 
coordination stage, and has not been completed. But a number of 
preliminary steps have been achieved and are in place should 
something happen sooner.
    For example, initial transportation and logistical 
requirements have been identified, mobilization centers and 
staging areas evaluated, a preliminary execution schedule and 
resources has been developed.
    We may also need, and plans are being done, to support 
transportation, fueling, and emergency medical services along 
transportation and evacuation corridors.
    Thank you very much for the opportunity to be here today.
    [The prepared statement of Mr. Lokey follows:]

         Statement of William Lokey, Operations Branch Chief, 
         Response Division, Federal Emergency Management Agency

    Good morning, Mr. Chairman and members of the Committee. My name is 
William Lokey. I am Chief of the Operations Branch of the Response 
Division of the Federal Emergency Management Agency. Also with me today 
is Ms. Nancy Ward, the Response and Recovery Division Chief from FEMA 
Region IX in California. On behalf of the Federal Emergency Management 
Agency and the Department of Homeland Security, I would like to thank 
you for the opportunity to brief you today. I plan to cover three 
topics. FEMA's general authority to mitigate, prepare for, respond to 
and recover from disaster; FEMA's role and activities in emergency 
planning in California and FEMA's specific response to Governor of 
California's State of Emergency; and the request for a Presidential 
Emergency Declaration for a potential levee break in one of the six 
Central Valley Counties of Colusa, Sacramento, Solano, Sutter, Yolo, 
and Yuba.
    FEMA derives its authority from the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act, P.L. 93-288 (Stafford Act), as 
amended. Simply put, this provides the authority for mitigating the 
effects of disasters through pre-disaster grants to states, the 
authority for preparedness planning with our Federal, State, Local and 
private sector partners, the authority for the Federal response, the 
authority for our recovery programs, and the authority for the Federal 
Coordinating Officer.
    Also, under FEMA's mitigation grant programs--Pre-Disaster 
Mitigation (PDM), Flood Mitigation Assistance (FMA) and the post-
disaster Hazard Mitigation Grant Program (HMGP), FEMA provides funds 
and technical assistance to develop State and Local Mitigation Plans 
(LMP), which assess the communities' risks and vulnerabilities and 
propose mitigation solutions to reduce those risks. Mitigation planning 
should be included as part of a communities overall planning effort. By 
having an LMP, communities have a better understanding of their risks 
and an awareness of the infrastructure and properties vulnerable to 
those risks, and can apply for mitigation funding when it is made 
available under the mitigation grant programs mentioned. Mitigation 
grant programs are 75% Federal 25% State or local cost share program.
    The role of FEMA, the Department of Homeland Security and other 
Federal, State, Local and Private Sector Partners is further outlined 
in the National Response Plan (NRP), the nation's all discipline, all-
hazard plan for establishing a single, comprehensive framework for the 
management of domestic incidents.
    FEMA and the new Preparedness Division in the Department of 
Homeland Security coordinate initiatives that include planning and 
technical assistance for state and local governments, and provide 
support to National Incident Management System (NIMS) implementation 
and the National Emergency Management Baseline Capability Assessment 
Program. Further, FEMA operates the National Emergency Training Center 
and the Emergency Management Institute (EMI), a national training 
center for emergency planning, exercise design, and incident command 
operations for Federal, State, local and private sector individuals.
    FEMA's Region IX continually supports all hazards emergency 
response planning. With the ever present potential for an earthquake 
impacting millions of people in California, FEMA Region IX staff is 
acutely aware of the importance of catastrophic emergency response 
planning in particular. As a result, Region IX has a close working 
relationship with both California State and local officials and 
conducts proactive regional and incident specific planning.
    As an example, Regional staff has been working with Federal, State 
and local officials in the Los Angeles area to develop a proactive 
approach of notification and deployment of Federal resources in 
anticipation of or in response to a catastrophic incident where federal 
assistance is immediately needed. Many of the concepts developed during 
this initiative have a broader application to the planning efforts in 
response to any levee failure.
    Publication of the NRP-Catastrophic Incident Supplement (NRP-CIS) 
also contributes to the Los Angeles planning effort. The NRP-CIS 
established a coordinated strategy for accelerating the delivery and 
application of Federal resources and capabilities in support of a 
response to a no-notice catastrophic event. After the experiences from 
Hurricane Katrina, this concept of pushing resources toward an event 
instead of waiting to be asked is being updated and strengthened.
    Additionally, FEMA Region IX continues to chair the Regional 
Interagency Steering Committee composed of National Response Plan (NRP) 
Emergency Support Function (ESF) agency representatives. Meetings are 
conducted every other month, often with the participation of State 
emergency officials, addressing issues such as an incident and hazard 
specific response and multi-agency coordination. FEMA Region IX has 
also identified federal operational support facilities, including 
California State specific Mobilization Centers and Staging Areas, and 
continues to provide National Incident Management System/Incident 
Command System (NIMS/ICS) compliant training and exercise 
opportunities, with a specific focus on joint, unified State/Federal 
operations.
    Under the Stafford Act, FEMA is authorized to supplement the 
efforts and available resources of State, local governments and 
disaster relief organizations for an emergency or major disaster 
declared by the President. We can lean forward and move Federal teams, 
commodities and equipment to Federal facilities to increase our 
preparedness, but we cannot actually provide pre-disaster assistance 
under the law, unless the Governor asks, certifying that it is beyond 
the State's capability and the President approves a declaration.
    The State of California has a very capable and professional Office 
of Emergency Services (OES). Specifically with regard to response to a 
California levee emergency or disaster, it is important to distinguish 
between the Sacramento-San Joaquin Delta levees and the levees 
referenced in the Governor Schwarzenegger February 27, 2006, request 
for a Presidential Emergency Declaration.
    The response to any emergency in the State of California including 
a widespread, massive levee failure would be under the authority of the 
State of California governed by California's Standardized Emergency 
Management System (SEMS), which incorporates the State's mutual aid 
system and principles of the ICS, and provides the structure through 
which State and local government agencies coordinate their emergency 
response and request resources from one another.
    While FEMA has no direct role in the maintenance of levees, 
California levee maintenance and flood fighting operations are 
primarily handled at a local level through Local Maintenance Agencies 
(LMAs). The USACE provides technical assistance, flood fighting 
assistance, and support for emergency repairs in situations where a 
levee meets the criteria for participation under COE authority. The 
state may request support from the USACE directly through this program 
without a Presidential disaster declaration under the Stafford Act.
    The Local Maintenance Agencies also play a key role in planning for 
levee emergencies. If the event is severe enough to threaten life and 
property, the LMA coordinates with the local Emergency Operations 
Center (EOC), which may request resources from other jurisdictions or 
OES through SEMS.
    California's OES will be responsible for the overall management of 
the emergency and for requesting support and resources from other State 
agencies, including the California Department of Water Resources (DWR). 
DWR is the lead state agency for flood response operations, and 
coordinates requests for flood fighting assistance with the U.S. Army 
Corps of Engineers (USACE).
    If the emergency is such that support beyond these authorities is 
required, a Stafford Act declaration would be necessary to authorize 
Federal assistance. In the event of levee failure and a Stafford Act 
Presidential Emergency or Major Disaster Declaration, the Department of 
Homeland Security's Federal Emergency Management Agency (DHS-FEMA) will 
provide supplemental assistance to the State of California and local 
jurisdiction Operational Area via the National Response Plan (NRP). The 
planning we are doing to be ready for the 2006 Hurricane season and the 
ongoing planning with the State of California will ensure that we are 
ready to respond quickly. We have strengthened our evacuation and 
search and rescue capabilities, our emergency medical response and the 
movement and tracking of commodities.
    Existing protocols call for the activation of the Regional Response 
Coordination Center and the deployment of FEMA Liaison and Emergency 
Response Team (ERT) personnel to tie in with State emergency management 
officials to address life saving and live threatening response 
requirements.
    According to the USACE, the exact risks from catastrophic levee 
failure are unknown and studies are being conducted in support of the 
larger California Department of Water Resources (DWR) Delta Risk 
Management Strategy (DRMS). According to the USACE, the DRMS will 
provide the basis for further feasibility studies in support of a 
comprehensive San Francisco Bay-Delta Plan.
    As part of this planning effort and consistent with the States 
plans and priorities, FEMA will continue to work with the Corps, the 
State and other stakeholders to:
    <bullet>  Improve Federal support to the emergency management 
response capability of local, State and Federal agencies to rapidly 
respond to levee emergencies and other Incidents of National 
Significance
    <bullet>  Streamline emergency contracting procedures and plan to 
ensure an adequate inventory of flood flight assets are strategically 
pre-positioned.
    <bullet>  Establish regular communication and planning activities 
among all emergency responders and affected communities and landowners.
    Currently contingency planning is underway as a result of the 
Governor of California's State of Emergency for a potential levee break 
in one of the six Central Valley Counties of Colusa, Sacramento, 
Solano, Sutter, Yolo, and Yuba included in the proclamation. FEMA 
Region IX and California OES are engaged in the Sacramento Valley Levee 
Response Plan Project (SVLRPP), including stakeholder participation 
from the USACE, California Department of Social Services (CDSS), 
California Department of Water Resources (DWR), six Central Valley 
counties' Emergency Management Agencies (Colusa, Sacramento, Solano, 
Sutter, Yolo, and Yuba), and the City of Sacramento.
    The purpose of this Project is to conduct an assessment of 
vulnerabilities, identify capabilities and shortfalls, and develop a 
regional plan to provide proactive response to create a comprehensive, 
venue-specific mass evacuation and mass care plan for the population at 
risk from a breach of 24 critical erosion sites in the Central Valley 
Counties of Colusa, Sacramento, Solano, Sutter, Yolo, and Yuba. Besides 
assisting local government planning efforts, this project is intended 
to enable FEMA to identify specific resources needed immediately, mid-
term, and long-term for response and recovery operations. The greatest 
need is to develop regional mass evacuation and shelter plans for the 
City of Sacramento and the greater Sacramento area.
    Though this plan is still in the development/coordination stage and 
has not yet been completed, a number of preliminary steps have been 
achieved and are in place should something happen before publication. 
For example, transportation and logistical requirements have been 
identified, potential mobilization centers and staging areas have been 
evaluated, and a preliminary execution schedule has been developed.
    FEMA may also need to provide support to transportation, fueling, 
and emergency medical assistance efforts along major transportation and 
evacuation corridors. With up to 220,000 people potentially displaced, 
including 36,000 people in an area known as the Pocket, a natural 
depression surrounded on three sides by levees, Sacramento City has far 
and away the greatest threat due to a levee failure along the 
Sacramento River.
    Mr. Chairman, Members of the Committee, thank you again for the 
opportunity to be before you today. I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Lokey. Unfortunately, I have 
to go do what the people of the 19th Congressional District 
elected me to do. It is two votes.
    Mr. Rodgers and Mr. Snow, if you will be patient, we will 
recess for a few minutes, and probably resume within 15 
minutes.
    Thank you very much. We are in recess.
    [Recess.]
    Mr. Radanovich. Mrs. Napolitano will be joining us shortly, 
but we are going to go ahead and resume the hearing. Take our 
next witness, Mr. Rodgers.
    Welcome to the Subcommittee, and you may begin your 
testimony. Thank you.

   STATEMENT OF KIRK RODGERS, REGIONAL DIRECTOR, MID-PACIFIC 
     REGION, BUREAU OF RECLAMATION, SACRAMENTO, CALIFORNIA

    Mr. Rodgers. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today and talk about the current water-related infrastructure 
of the Delta, and the challenges we face in protecting the 
future water supplies.
    My testimony today addresses reclamations, physical and 
operational response to a levee failure, based on past 
experience and potential request for assistance that may arise. 
I defer to the Corps of Engineers and the State Department of 
Water Resources to discuss the conditions and primary response, 
since they have that delegated responsibility.
    It is noteworthy that many of the Delta islands lie below 
sea level, and thus are protected by levees. These levees also 
form channels by which the water moves through the Delta. And 
water from upstream reservoirs is released to rivers which flow 
to the Delta, where these levee-bounded channels convey the 
water to the Central Valley Project and the State Water Project 
facilities.
    It has been pointed out that two-thirds of the state's 
population benefit from drinking water that derives from the 
Delta, and similarly a large portion of the state's agriculture 
depends on these mechanisms to bring water to their crops. I 
should add that the stability of the Delta also is important to 
aquatic species that either pass through or do reside there.
    It is for these reasons that the importance of the Delta to 
California's complicated water delivery system cannot be 
overstated. Both reclamation and the California DWR have a long 
history of working together to ensure reliable water supply for 
the people of the State of California.
    There does continue to be a lot of discussion today 
comparing Sacramento and San Joaquin Bay Delta to New Orleans 
in relation to its importance and its vulnerability, and 
rightfully so. A catastrophic event could result in levee 
failures that would make it very difficult, if not impossible, 
to deliver water to customers south of the Delta.
    It is important to note that a significant Delta levee 
failure could also impact operations of storage facilities as 
far north as Shasta Lake in ways that I will further explain in 
just a moment.
    I want to point out that there is no cookbook recipe for 
levee failure in the Delta because its precise responses depend 
upon several factors. One, some of those might be the number of 
levees that do fail. Their location or the season and time of 
year. Each circumstance introduces a variable that may greatly 
alter the response.
    Regardless of the variable circumstance associated with the 
failure, Reclamation is willing to assist, if asked, by those 
state and Federal agencies whose responsibilities it is to 
manage the levee system. Examples of assignments that 
Reclamation could be responsive to are as follows.
    We have design and engineering services, construction 
inspection surveys, construction contracting and management, 
and other related services. Also if needed, we do have some 
heavy equipment and operators that could be made available.
    Our objective would be to assist in returning the system to 
service as quickly as efficiently as possible.
    A second or equally important consideration to a physical 
response is taking water management actions that may assist in 
restoring service efficiently. Central to Reclamation's mission 
is to deliver water, and we will do what is necessary to 
maintain that capability.
    A couple of examples of actions we could take to assist in 
the event of a failure is as follows. One is that we could 
adjust or curtail pumping at our plant in the Delta. This would 
minimize saltwater intrusion, which rapidly degrades the water 
quality, as salty water rushes in from the bay to fill the 
islands where the levee failures occurred. And it was one of 
the first actions we took in response to the Jones Tract levee 
failure in 2004.
    Another thing we could do is adjust upstream reservoir 
releases to assist in flushing salty water out of the Delta 
that may have been pulled in as a result of the failure. Again, 
this was an action that we took during the Jones Tract failure.
    I hasten to point out, though, that these examples fit as 
effective responses in the Jones Tract incident, it was a one-
levee, one-island occurrence. It cost Reclamation 30,000 acre-
feet of unscheduled release from storage to flush the saltwater 
out of the Delta.
    Different decisions may be appropriate if the failure were 
more severe, such as one would expect from an event caused by 
earthquake or massive flooding, where multiple levee failures 
may be the result.
    And I would just conclude by saying three things. The Delta 
is important, and we are willing to help, either in a physical 
response way or operational management way, if asked.
    Thank you.
    [The prepared statement of Mr. Rodgers follows:]

       Statement of Kirk Rodgers, Mid-Pacific Regional Director, 
         Bureau of Reclamation, U.S. Department of the Interior

Introduction
    Mr. Chairman, and members of the Subcommittee, I am Kirk Rodgers, 
Mid-Pacific Regional Director for the Bureau of Reclamation. I 
appreciate the opportunity to appear before you today to discuss the 
current water related infrastructure conditions in California's Central 
Valley and the challenges we face in protecting future water supply 
deliveries. My remarks are focused on the work and activities in the 
Sacramento/San Joaquin River Delta (Delta) and on the risk faced in the 
context of levee failures.
Importance of the Delta
    The Delta includes nearly 60 islands and tracts lying below sea 
level that are protected by levees. These mostly privately owned and 
maintained levees were built to protect crops from flooding. We will 
defer to the Corps of Engineers and the State of California to more 
fully address the condition of the levees in the Sacramento/San Joaquin 
River system.
    The importance of the Delta to California's complicated water 
supply delivery system cannot be overstated. Water pumped out of the 
Delta provides drinking water for two-thirds of the state's population, 
and supports one of the most productive agricultural regions in the 
nation. The Delta's channels convey water from upstream reservoirs to 
the south Delta, where the Central Valley Project (CVP) and State Water 
Project (SWP) facilities can move water into the CVP's Delta-Mendota 
Canal and the SWP's California Aqueduct. The stability of the Delta 
levees that contain the water in these channels is paramount to 
protecting the Delta infrastructure ensuring a reliable supply of fresh 
water to the Federal and State facilities.
    The failure of key levees has the potential to impact the CVP water 
supply that is managed by Reclamation. My testimony today will focus on 
Reclamation's response to levee failures as opposed to dam safety or 
canal failures. Additionally, I will describe a generalized response to 
scenarios ranging from a small levee failure, such as Jones Tract levee 
failure, to a disaster that could have a prolonged and indefinite 
impact on significant portions of the CVP water supply.
Response to Levee Failure
    In June 2004, a levee failure occurred in dry weather and without 
warning on Upper Jones Tract in the South Delta. Following the break, 
Delta pumping was curtailed for several days to prevent seawater 
intrusion into the Delta. The State and Federal pumping plants were 
limited for a time and water shipments to Southern California were 
continued only through unscheduled releases from San Luis Reservoir, a 
large off-stream reservoir where water is held after it is pumped from 
the Delta. Releases were also increased at Folsom, Shasta, and Oroville 
reservoirs, sending more fresh water to the Delta for salinity control. 
The costs related to this levee break were estimated to be nearly $100 
million according the California Department of Water Resources report 
entitled Flood Warnings: Responding to California's Flood Crisis, 
January 2005. The levee is privately owned. The cause of the break is 
still unknown.
    Reclamation's response to any levee failure would be based on the 
nature and extent of the failure. The response would depend on a number 
of factors, including:
    (a)  risk of flood or earthquake,
    (b)  the number of failed levees,
    (c)  the time of the year (winter or summer), and
    (d)  the location of the levee failures.
    Reclamation's CVP water service contracts have a shortage provision 
which recognizes that short-term or long-term water shortages may occur 
as a result of unforeseen events, such as a significant levee failure. 
This contract provision would allow Reclamation to respond to health 
and safety concerns that might arise as a result of such an event.
    In general, Reclamation would respond to a levee failure in the 
following way:
    (a)  Work with the Division of California Water Resources to 
stabilize the situation in accordance with the State's Disaster 
Preparedness Plan.
    (b)  If necessary, modify upstream reservoir releases and re-
operation of associated canals to manage potential salt water 
intrusion.
    (c)  Employ the use of temporary features, such as barriers, pumps, 
or canals to ensure an adequate supply of quality water is accessible.
    During any emergency situation, Reclamation closely coordinates 
with the California Department of Water Resources, the California 
Office of Emergency Services, the Corps of Engineers, and the Federal 
Emergency Management Agency. Levee breaks in particular also involve 
coordination with the State Water Resources Control Board and various 
other local agencies.
Conclusion
    Reclamation is committed and prepared to use all tools at our 
discretion to manage an emergency of any size regarding levee failure 
in the Delta. In a worst case scenario where the only available usable 
water supply is contained in reservoirs upstream of the Delta, the 
State of California has the authority under the state water code to 
determine the best usage of the available water supply in the interest 
of public health and safety. Reclamation will continue to cooperate 
with other agencies and the public to protect the CVP water supply in 
the event of a levee failure in the Delta.
    That concludes my testimony. Mr. Chairman, I would like to 
reiterate my appreciation to the sub-committee and others for 
continuing to work with the Administration to address these significant 
water issues facing California. I would be happy to answer any 
questions at the appropriate time.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Rodgers. I appreciate your 
testimony.
    Next is Mr. Lester Snow of the Department of Water 
Resources.
    Lester, welcome to the Subcommittee.

 STATEMENT OF LESTER SNOW, DIRECTOR, CALIFORNIA DEPARTMENT OF 
            WATER RESOURCES, SACRAMENTO, CALIFORNIA

    Mr. Snow. Chairman Radanovich, good to see you.
    We have provided to you and members of the Committee an 
information packet just today. It includes a flood warnings 
document that we issued to the Legislature, California 
Legislature, in January of 2005, that highlights a lot of the 
issues that unfortunately have come to bear in terms of 
deterioration of the flood system, as well as a deferred 
maintenance.
    It also includes a DVD that highlights some of the actual 
problems that we have encountered: the Jones Tract failure, and 
also some of the flood fights from January of 2006. 
Unfortunately, we will update it soon to include the flood 
fights that are going on as we speak.
    It also includes some of the issues that Congressman Costa 
made reference to. We have animations of the 6.5 earthquake, 
and what results in the Delta, and how it impacts the water 
system, as well as an animation of the erosion of critical 
erosion sites that you may know have been declared an emergency 
by Governor Schwarzenegger.
    What I would like to do is cover four basic elements. A 
very quick status report, an update on the flooding conditions 
in California, updated about midnight last night. Then 
highlight the Governor's flood initiative, which is divided 
into two parts, the Central Valley Federal Flood Control 
System, which is about 1600 miles of levee, the Delta, which is 
about 700 miles of local levee, Emergency Response, and then 
finally our request and expectation of Federal assistance.
    I would like to point out, in terms of the Governor's flood 
initiative, that he has laid out a bond proposal that maps a 
10-year investment strategy of approximately $6 billion to 
improve the flood system. Separate from that $6 billion in the 
Governor's bond initiative is $1 billion exclusively for 
surface storage.
    As you may know, that has not been without controversy 
within the State Legislature. We are committed to seeing 
funding of appropriate surface storage in the State of 
California, as well as funding of other sources of storage.
    In terms of the current situation, to date we have an 
update, I think it was provided to you and Members of the 
Committee. As of this week, we are currently about 167 percent 
of normal rainfall in the state, with very healthy snow pack. 
Unfortunately, some of the recent storms have been warm, and 
are starting to melt the snow pack.
    In terms of dividing the Central Valley up into three 
parts, the Sacramento Valley has probably already peaked and 
starting to recede. Within the Delta, we are already seeing 
some receding from the flows coming in from the Sacramento 
side. We have not experienced the high winds that we did 
earlier this year, nor the double-high tides that caused us 
great problems New Year's Day.
    So the Sacramento Valley and the Delta are kind of in a 
watch condition. We are not overly alarmed at this point.
    However, the story is very different in the San Joaquin 
Valley. The San Joaquin River is above capacity as we speak. 
And that would not be so bad except we expect it to be 
sustained above capacity for at least a week or more, and could 
be as long as two weeks. So we have a very high level of 
concern.
    Now, there is some drying today. We expect to be some 
drying tomorrow. But unfortunately, late Friday on through the 
weekend we expect a series of storms. So the San Joaquin River 
will continue to flow at and above capacity.
    We have activated flood fight teams throughout the Valley, 
so that they are there, employees to respond. We have pre-
positioned materials, and we are increasing surveillance so we 
can respond quickly.
    Now, what I would like to do, if I could, is make reference 
to an information piece that is in the information packet that 
contains a series of slides and pictures that I think would be 
helpful in terms of explaining how we are approaching the 
problems that we have.
    On the second page in terms of California's flood crisis, 
again, we divide it into two parts: the Federal project levees, 
which provide inadequate levels of flood protection because of 
their origin and because they used to protect farmland and now 
protect major urban areas, and the vulnerability of the Delta 
system.
    Again, to highlight, on page 3, we have 1600 miles of 
Federal project levees, 700 miles of local Delta levees. That 
is an aging system, continued deterioration, and a major 
problem not only for protecting housing, commercial activities, 
but the water supply for much of the State of California.
    Fourth page is simply a reminder of how this system 
developed 100 years ago, piling up dirt along the river to 
protect agricultural land. It was done specifically to 
encourage erosion to move the sediment from Placer mining 
activities out of the system. Unfortunately, that erosion 
continues today.
    On page 5, this is a lot of the strategy that we are 
employing in the Central Valley to deal with inadequate levees 
from a height standpoint, and also a seepage standpoint. So 
when you hear the Corps of Engineers or the Department of Water 
Resources refer to getting the 200-year protection, it means 
strengthening the levees. It also means slurry walls to cutoff 
seepage.
    The next page, the Chairman has already pointed out that 
Sacramento has some of the lowest protection of any major urban 
area, below 100-year protection. The Governor's bond package 
that I have made reference to would support the Corps 
activities and achieve a 200-year level of protection for 
Sacramento.
    On page 7, unfortunately we can show you an inundation map 
for the Sacramento region. Two areas with just two levee 
breaches, we would see water over 20 feet deep in what is 
called the Natomas Basin, as well as in the pocket area. By our 
estimates, working with the city, we would expect $28 billion 
of damage from just two levee breaches in those areas during 
flood stage, a 200-year event.
    The next page, page 8, highlights actual pictures of 
existing erosion sites. The map shows the 24 erosion sites that 
the Governor has declared as an emergency, and we are 
proceeding in concert with the Corps of Engineers to repair 
those sites in this calendar year.
    The following page simply shows why this is an emergency. 
There has been some concern that an erosionsite can be fixed at 
any time. The problem is that these are deemed critical because 
they have undermined the slope of the levee, and can fail in 
the next flood event.
    If we could skip to page 11. The Governor, recognizing the 
vulnerability of the system, recognizing the length of time it 
was taking both the state and the Federal government to respond 
to these critical sites, declared an emergency on February 24. 
It provides additional resources to the Department of Water 
Resources, and allows us to streamline the permitting process 
in California.
    We have requested supporting Federal action, in terms of 
contract amendments, to accept advance monies from the state. 
We need Federal resource agencies to expedite the permitting 
process so we can do any mitigation that is required after the 
fact, not prior to the action.
    We need to revise the process so that the state can obtain 
Federal credits for the money that we front in this process.
    And finally, we need to expand and reauthorize the sack 
bank program so we can continue into phase three.
    On to the Delta. On page 13, and this has been covered, but 
700 acres, 60 islands, 1100 miles of levees, over 700 miles of 
those are private levees, or local levees. What can we lose? 
What is dependent on the Delta? Twenty-two million 
Californians, over four million acres of ag land receive their 
total water supply from the Delta.
    The water supply out of the Delta supports directly $400 
billion of the state economy, and indirectly probably double 
that. It is actually home for 400,000 people, 500 species of 
habitat in the Delta region. And an issue that we have begun 
focusing on is the major highway, the transportation corridor, 
petroleum pipelines, power distribution, and deepwater port.
    Page 15 simply shows that in the Delta, these are no longer 
levees. These are dams. They are constantly holding back water. 
Because of the subsidence and oxidation of the peat soils, we 
actually are farming below sea level and below flood stage in 
almost all of the islands. And that is why I make reference to 
these are dams that would not meet any standard for a dam in 
the State of California.
    On page 16 is the traditional way we have looked at risks 
to Delta levees. Overtopping, high winds, under-seepage in 
boils or a surprise break, as we had on Jones Tract.
    The new aspect, on page 17, Congressman Costa has already 
mentioned. And that is the realization of earthquake-induced 
failure in the Delta, meaning many simultaneous breaks. We have 
been aware of earthquake threats. Recent modeling has been done 
by the Department, by UC, Davis, that gives us a much better 
understanding of what could happen to these levees that are 
basically located on peat soils.
    The next page shows the 6.5 earthquake. Our estimate from 
this analysis is 30 levee breaches. Sixteen islands would be 
flooded. Our assessment is this would have a probability 
equivalent to Katrina, so somewhere in the neighborhood of a 
one in 300 chance. Sounds remote, but could be very 
devastating, obviously.
    One of the key issues and the topic of this hearing on the 
next page is that failure of those 16 islands would suck in 
approximately one million acre-feet, 300 billion gallons of 
saltwater, into the Delta. It would immediately shut down 
exports out of the south Delta, but probably also would affect 
the east Bay and contra-costa water supplies.
    On page 20, we would expect that after a year we have only 
been able to repair seven of the islands, keeping in mind over 
that year we would have flood events, we would have wind damage 
that would be occurring to other areas, and we would be making 
interim actions in the south Delta, so that we could resume 
maybe a third of the normal pumping.
    At the bottom of that bullet list, we have estimated very 
conservatively $40 billion of economic impact to the State of 
California.
    In terms of emergency preparedness and response, I won't go 
into detail on this. We do pre-position material. The 
Department does operate and conduct local training. That came 
up in the earlier panel. There are at least two training 
sessions a year. We train probably two to three hundred local 
emergency response and flood fight managers every year.
    We have hydrologic models so that we can predict impact of 
flooding events, impact of major storm events. And we operate 
within what is called the Standard Emergency Management System, 
or SEMS.
    I will mention this shows a CCC crew. We have activated 
both CDF crews and CCC crews to be on standby in the San 
Joaquin Valley.
    In terms of emergency response in the flooding of Delta 
islands, historically, over a long period of time, the Corps 
has been the agency that has responded with a local district. 
In the mid-eighties, the Corps declared that they would not be 
involved in reclamation of flooded islands. In 2004 with Jones 
Tract, that is the first time that the state has stepped in and 
taken responsibility for repair.
    The current emergency response system that we have and that 
we support is able to deal with several simultaneous island 
floodings, but nothing of the magnitude that I highlighted in 
the earthquake disaster scenario.
    On the next page, I will just mention a few things. The 
Schwarzenegger Administration is very focused on flood 
management. It has its origins in the report we submitted to 
the Legislature on our response to the Jones Tract failure. We 
have introduced legislation that did not move very effectively 
last year. We have a whole new level of interest in the State 
Legislature this year in terms of responding.
    The Governor, as I already mentioned, proposed an 
infrastructure package that included initially $2.5 billion. He 
has increased that to $6 billion to be on the table. The 
Legislature has various versions in play, all of them at least 
$4 billion for investment in flood.
    Declaration of emergency, as I already mentioned in 
February, we are proceeding and working very closely with the 
Corps to expedite repair of those sites.
    Two other points that I will mention on page 25. We 
described the disaster scenario and presented it to the 
Legislature. We have undertaken what is called the Delta Risk 
Management Strategy, which is to look on a very technical basis 
at all the levees in the Delta, and start setting up a priority 
structure for investments.
    And the last bullet on that page is developing a long-term 
hundred-year vision for the Delta; what will the Delta look 
like 100 years from now, how do we start investing to make sure 
that we can maintain the Delta was a viable resource for all 
the purposes.
    Implicit in that Delta vision is that our current approach 
to managing the Delta is not sustainable. We have to do 
something different in the Delta. What we are doing now does 
not work.
    Finally, our request in terms of Federal flood management 
assistance, specifically in the 24 erosion sites, I have 
already mentioned the need for a contract amendment, the need 
for expedited emergency permitting under ESA, the need for a 
process for the state to get credits for our advance money, and 
the need to authorize the third phase of the Sacramento River 
Bank Protection Program.
    In terms of Delta emergency response, I believe we need to 
develop a better understanding of exactly what the Federal role 
will be in responding to emergencies in the Delta. I think that 
has become murky over the years, and we need to clarify that.
    On a statewide basis, we simply need to continue Federal 
involvement and cost-sharing as we move forward with flood 
control all across the state, in terms of the subventions 
program, the Delta, as well as the project levees.
    That concludes my comments.
    [The prepared statement of Mr. Snow follows:]

                Statement of Lester A. Snow, Director, 
                California Department of Water Resources

Introduction
    Committee Chairman Pombo, Subcommittee Chairman Radanovich, and 
members of the Subcommittee, I appreciate the opportunity to appear 
before you today to discuss flood issues in the Bay-Delta watershed of 
California. Governor Arnold Schwarzenegger and his administration have 
warned that California faces a multi-faceted flood crisis. Tragically, 
it took the lethal and destructive force of Hurricane Katrina to draw 
attention to flood threats in California, where the potential for 
catastrophic flooding is even greater than it was in New Orleans.
    In January 2005 Governor Schwarzenegger released Flood Warnings: 
Responding to California's Flood Crisis. This white paper identified 
the challenges associated with flood management in California: 
California's flood protection system is comprised of aging 
infrastructure with major design deficiencies. Many of our levees were 
built as part of the federal flood control system more than a century 
ago using primitive designs and construction techniques. These levees 
have been further weakened by deferred maintenance. Funding for 
maintenance and repair of levees has dwindled over time as governments 
at the federal, state, and local level struggle to meet all their 
financial commitments.
    Meanwhile, escalating development in floodplains increases the 
potential for flood damage to homes, businesses, and communities. In 
the Sacramento-San Joaquin Delta there is another threat: levee failure 
can jeopardize reliable water supplies for farms and cities across two-
thirds of the state. This is because a levee failure in this Delta 
region would draw salt water into Delta channels, rendering this water 
too salty to deliver to farms and cities served by the Central Valley 
project, the State Water Project, and local projects that draw water 
from the Delta.
    Our flood management responsibilities include both prevention and 
emergency response. I will describe activities related to both, but 
will focus on prevention.
    In this regard I would like to focus on two particular aspects of 
the Schwarzenegger administration flood efforts, and our view of the 
federal role in these efforts. These two aspects include the Governor's 
declaration of a flood emergency to expedite repair of critical erosion 
sites identified by the U.S. Army Corps of Engineers, and the 
increasing vulnerability of the Sacramento-San Joaquin Delta including 
the State and federal interests that are put at risk by this 
vulnerability.
Levee System State of Emergency
    On February 22, 2006 Governor Schwarzenegger and Senator Dianne 
Feinstein led a Congressional delegation on an aerial tour of Central 
Valley levees. They viewed some of the 24 critical erosion sites in the 
Sacramento Valley and the Delta identified in December 2005 by the U.S. 
Army Corps of Engineers. Many of these sites have deteriorated further 
since their identification by the Corps in December, due to flood flows 
that occurred in California river systems on or about New Year's Day 
2006.
    In response, Governor Schwarzenegger on February 24, 2006 declared 
a state of emergency for the state's levee system. He directed the 
California Department of Water Resources to repair these 24 sites 
during this calendar year, and he made available approximately $100 
million in State reserves to fund this emergency work.
    Erosion can take its toll on any levee system, but it should not 
come as a surprise that most of these critical sites are along the 
Sacramento River. The levees of the Sacramento River were intentionally 
designed by the U.S. Army Corps of Engineers to erode. During 
California's Gold Rush, placer mining in the Sierra Nevada washed 
entire mountainsides into local streams and rivers. This silt deposited 
in riverbeds of the central valley, increasing flood risk at the very 
time that farms were being established throughout the valley. In 
response, levees were built to contain the floodwaters. These levees 
were intentionally built very close to the channel in order to keep 
water velocity high and scour this sediment out of the river systems.
    Today, these narrow channels have been too successful. The gold 
rush silt has long since been washed out of the system, but the erosive 
force of the river continues to eat away at the levee system. Today, 
the levees protect not only farms, but also hundreds of thousands of 
people who live and work in central valley cities and towns. All 
together, more than $47 billion in infrastructure is protected by 
central valley levees.
    At the existing levels of funding and capacity to plan and carry 
out levee repairs, correction of these 24 sites by State and federal 
agencies could take up to four years. By then, the river will have 
eroded additional sites that will further threaten lives and property. 
The ``business as usual'' approach will eventually result in a 
catastrophic flood that will destroy businesses and take lives.
    To avoid catastrophe, we must eliminate this backlog of repairs. 
Governor Schwarzenegger has taken several proactive steps to improve 
our flood protection. He has augmented the State's budget for flood 
management efforts, and he has proposed a very large investment in 
flood management as part of his Strategic Growth Plan. But these 
efforts, while very beneficial to our efforts to protect Californians 
from flooding, are not sufficient. That is why the Department of Water 
Resources has been tasked with carrying out a monumental erosion repair 
program this year. We have enlisted the support and cooperation of 
other State agencies to ensure that we can plan, design, permit, and 
construct repairs this year.
    We are also working closely with our federal partners at several 
agencies as we prepare for this massive repair program. I would like to 
brief you today on the status of two areas of interaction: responsible 
streamlining of environmental permitting under federal emergency 
procedures, and crediting to obtain eventual federal cost-share funding 
for the work that California will carry out this year.
    Environmental Permitting. Levee maintenance and repair projects 
ordinarily require several environmental permits before they can 
proceed, and environmental permitting has sometimes been blamed--
accurately or not--for delaying levee projects. In California we have 
been proactively addressing this situation. Last year I convened a 
committee of policy-level managers from State and federal agencies to 
consider how we might appropriately avoid, minimize, or mitigate for 
the environmental impacts of levee work in ways that would allow the 
projects to be implemented quickly. One tool we are investigating is 
the use of mitigation banks so that project mitigation is taken care of 
in advance of the levee work itself.
    In consideration of this levee emergency, we propose to formalize 
and expand this committee as a Levee Repair Executive Oversight 
Committee. The purpose of this committee is to ensure that the federal 
and state agencies responsible for permitting and environmental 
compliance work together in an expeditious and cooperative manner to 
perform the critical levee repair work this year. We will depend on 
this interagency committee to help us meet the challenge of addressing 
State and federal permitting in ways that allow us to protect the 
environment and stay on schedule.
    The Governor's emergency declaration allows him to waive certain 
State requirements such as those related to the California 
Environmental Quality Act. However, we have been able to proceed in an 
environmentally sensitive manner by relying on emergency procedures 
available to State regulatory agencies. In this way we can comply with 
environmental protections while we are improving our flood protection. 
California encourages federal permitting agencies to take the same 
protective, yet flexible, approach. We have already been engaged in 
discussions with the Department of the Interior and received Interior 
commitment to use emergency permitting procedures available to the U.S. 
Fish and Wildlife Service.
    Federal Cost-Share Crediting. The federal government has 
traditionally been a partner to States and communities in providing 
funding for flood control repairs and improvements. Using available 
funding, the U.S. Army Corps of Engineers was prepared to repair five 
of the 24 erosion sites this year. The horrifying images of Hurricane 
Katrina's aftermath have reinforced the fact that the failure of flood 
control facilities can have devastating consequences. California cannot 
wait years to complete the repair of erosion sites that the Corps has 
already designated as critical.
    Therefore, Governor Schwarzenegger has pledged funds from State 
reserves so that emergency repairs can be made this year without 
waiting for traditional cost-sharing. We will, in effect, provide 
credit to the federal government for its share of the funding to 
complete repairs at ten erosion sites. The Governor has asked the Corps 
to arrange for California to be reimbursed by the federal government 
under appropriate cost-share formulas without the need for prior 
approval of credit agreements
The Increasing Vulnerability of the Delta
    No region of California faces a greater long-term threat of 
catastrophic failure than the Sacramento-San Joaquin Delta. This area 
is not a river delta in the classic sense. It is a 700,000 acre region 
within the Central Valley of California where the Sacramento and San 
Joaquin Rivers come together in a maze of channels and sloughs and flow 
to San Francisco Bay. The lands surrounded by these channels have come 
to be called islands but, again, they are not islands in the classic 
sense. They are in fact more like New Orleans--lands with elevations 
below sea level that are protected by fragile levees.
    Of course, there are differences between our Delta islands and New 
Orleans. The levees built to protect the homes, businesses, and 
citizens of New Orleans provided 250 year flood protection. The 
Sacramento-San Joaquin Delta is a mostly agricultural region. Only a 
small fraction of the 1100 miles of levees that protect the Delta 
islands are Project levees. Most are privately built levees, first 
constructed over a century ago. Very few of them offer even 100 year 
flood protection.
    This level of protection was sufficient for the agricultural region 
of a century ago, but many changes have taken place in the Delta. The 
peat soils of the Delta have subsided, gradually lowering the 
elevations of Delta islands. Some of these parcels are now more than 20 
feet below sea level. As California grew during the 20th Century, two 
great water projects were built to meet the demands of central valley 
farms and coastal cities. Today both the federal Central Valley Project 
and the State Water Project are vitally dependent on fragile Delta 
levees to protect water supply and water quality. Other infrastructure 
now crosses the Delta, and is dependent on the continued stability of 
Delta levees, including state highways, railroad lines, water supply 
pipelines that serve much of the San Francisco Bay area population, 
energy transmission lines, and petroleum pipelines to name a few.
    As our dependence on the Delta has grown, so has the threat of 
catastrophic failure of Delta levees. Traditionally we have viewed the 
flood threat of winter storms as the greatest vulnerability of the 
Delta. We recognize that this threat has grown over time as the Delta 
islands have subsided, requiring taller levees to protect them. Today 
we recognize that global climate change poses additional threats. The 
careful hydrologic records we have kept since the 1940's have already 
documented the changes that are taking place. Over the next century we 
expect sea level in the Delta channels to rise by a foot or more. At 
the same time, we expect warmer storms to produce higher peak flood 
flows.
    Today there is a growing realization that the Delta also faces 
threats from seismic events. An earthquake could liquify the 
foundations of Delta levees and cause catastrophic flooding that would 
devastate the economy of California and the nation. We have considered 
the effects that a 6.5 magnitude earthquake in the Delta region would 
have. This magnitude earthquake may have about the same occurrence 
probability as a hurricane like Katrina. Such a temblor could cause 30 
levee breaches, flooding 16 islands in the Delta. 300 billion gallons 
of salt water would be drawn into these subsided islands from San 
Francisco Bay. The salt in the Delta would render it useless as a water 
supply source, shutting down the Central Valley Project and State Water 
Project for several months. When water deliveries could resume, they 
would be smaller in quantity and much lower in quality than 
Californians have come to expect.
    California's economy would be severely affected. Economic losses 
would easily reach $30-40 billion in the five years after the 
earthquake. Thirty thousand jobs would be lost. Agriculture in the San 
Joaquin Valley would be greatly impacted. And all these economic 
effects would ripple throughout the nation and the global economy.
    Both the State and federal governments have taken proactive steps 
to address catastrophic failure of Delta levees. Congress authorized 
$90 million in the CALFED authorization bill in 2004 for the U.S. Army 
Corps of Engineers to assess Delta risks and undertake reconstruction 
and enhancement of Delta levees. Two weeks ago the Corps released a 
draft Sacramento-San Joaquin Delta Report, identifying and prioritizing 
potential levee stability projects in the Delta. We urge Congress to 
support an active role for the Corps in the Delta by appropriating the 
full authorization so that the Corps can participate as a partner in 
our efforts to protect the Delta.
    Together with the Corps, California is working to develop the Delta 
Risk Management Strategy that Congress called for in the CALFED 
authorizing legislation. By 2008 this effort will help us to better 
understand all the risks to Delta levee stability, quantify what is at 
stake when catastrophic failure occurs, and provide long-term options 
for Delta protection.
    At the same time that we develop long-term options for Delta 
protection, we must be prepared to respond to failures in the Delta and 
throughout the system when they occur. We have organized our 
institutions to be as responsive as possible. For example, the 
operations centers for the State Water Project and the Central Valley 
Project are located at the same facility that houses our Flood 
Operations Center and the regional office of the National Weather 
Service. In this way, communication and coordination among the project 
operators, the forecasters, and the flood fighters can be rapid and 
seamless. When a flood emergency is declared, our flood management 
staff can function 24/7 alongside those who are forecasting flood 
events and those who are managing dams and reservoirs.
    A good illustration of our coordinated response came in June 2004 
when a Delta levee at Jones Tract failed. Working with the Governor's 
Office of Emergency Services, we activated our Standardized Emergency 
Management System, or SEMS. DWR and OES coordinated a response that 
included establishment of an incident command center in the field and 
the involvement of the local levee district, the county, several state 
agencies, Reclamation, and the Corps.
    Recognizing that the Delta must be protected in both the short term 
and the long term, Governor Schwarzenegger has proposed substantial 
funding to protect what we have in the Delta, respond to emergencies, 
and implement the long-term plans we will develop in the coming months. 
The Governor's Strategic Growth Plan initially included over $900 
million in proposed funding to protect Delta levees and he subsequently 
proposed increasing this amount to $1.5 billion.
Conclusion
    California faces unprecedented threats from catastrophic flooding. 
Some of the risk is attributable to our own action or inaction: we 
depend on century-old levees to protect our growing population and 
economy, we have not always maintained these levees as well or as 
promptly as we should, and we have pursued land uses in the Delta and 
elsewhere that have caused subsidence or increased the risk to lives 
and property. We are also improving our understanding of the risk we 
face: our engineers are learning more about the faults that may lie 
hidden within levees, we have the knowledge to update flood zone maps, 
and we are gaining an understanding of the increased risk posed by 
climate change. Tragically, it has taken the misfortune of Hurricane 
Katrina victims to focus attention on similar risks in California.
    We are ready to make the investments and do the work necessary to 
improve our flood security. The Schwarzenegger administration issued a 
white paper in January 2005 calling attention to California's crisis, 
sponsored flood management reform legislation at the State level, 
increased the State budget for flood management, proposed general 
obligation bond investments for flood protection, is leading the 
development of a Delta Risk Management Strategy, described a Delta 
disaster scenario that highlighted the profound threat and spurred 
action, and declared an emergency due to critical erosion in our levee 
system. We are successfully partnering with federal agencies to better 
understand the risks, to repair and improve the system, and to expedite 
the permitting processes associated with levee construction.
    We hope that the Congress will recognize the severity of flood risk 
in California, appropriate funding for traditional cost-shares and new 
authorizations to fund the work of the Corps in the Delta, and help 
California improve our level of protection against catastrophic 
flooding.
    Thank you for the opportunity to testify before this Subcommittee. 
I would be happy to answer any questions that the members may have.
Attachments:
Governor's Emergency Proclamation of February 24, 2006
Governor's Letter of February 27, 2006 to President Bush
Governor's Executive Order of March 6, 2006
Governor's Letter of March 6, 2006 to General Strock

[GRAPHIC] [TIFF OMITTED] T7015.002

[GRAPHIC] [TIFF OMITTED] T7015.003

[GRAPHIC] [TIFF OMITTED] T7015.004

[GRAPHIC] [TIFF OMITTED] T7015.005

[GRAPHIC] [TIFF OMITTED] T7015.006

[GRAPHIC] [TIFF OMITTED] T7015.007

[GRAPHIC] [TIFF OMITTED] T7015.008

[GRAPHIC] [TIFF OMITTED] T7015.009

[GRAPHIC] [TIFF OMITTED] T7015.010

                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Snow, for your testimony. A 
lot of questions.
    Mr. Schroedel, I want to get a sense of, and appreciate 
your statement on the need to act now, and how the Corps is 
ready to go forward. And it was very well outlined in your 180-
day report that was received recently.
    Can you give me an idea if funding were not an issue, how 
long would it take to implement the items, the to-do list that 
was generated in that report that you submitted? And what are 
the things, aside from funding, that might be getting in the 
way of your ability to implement that?
    Brigadier General Schroedel. Sir, just to summarize our 
findings so far, again, we asked for input from all comers to 
identify for us critical sites that needed work. We were also 
given some parameters with which to consider the input.
    Specifically, we were asked to consider for potential 
execution those critical sites that met our section 205 
limitations, which mean essentially about an $11 million 
project, funded 65 percent Federal, 35 percent non-Federal.
    So here is what we found. We found about 54 sites that were 
submitted to us, 29 of which met the 205 limitations of about 
an $11 million project. The total for the 54 sites amounts to 
about $1.2 billion. And then the value----
    Mr. Radanovich. Just for the record, those 54 sites, were 
those levee repair sites?
    Brigadier General Schroedel. Yes, sir, levee repair sites. 
And one point that I would make just to underscore a comment 
that I made earlier regarding the fact that this is just 
information we asked, and it is input we received; and it is 
hard to judge what else is out there that we are not aware of.
    As an example, Sherman Island, which is a very critical 
island on the western edge of the Delta, we had no submissions 
for any requirements. That is a little strange to us.
    So I just want to make sure that that is very clear, when 
we get that 180-day report, it is not a conclusive this is what 
needs to be done. That is an important point I think we need to 
make first.
    Second, $1.2 billion worth of work, 54 sites. The 29 sites 
that are within the 205 limitations, the smaller projects 
amount to probably $100 million is all out of that $1.2 
billion.
    Now, how long would it take, I wouldn't hazard to guess 
right now. But it would take probably quite a while just to do 
that work.
    And again, the last point I would make, if I may. Even if 
we did all of that work, that still does not guarantee the 
integrity of the system. And then I would second Lester's 
comments about the status of the Delta and the infrastructure 
of the levees rather. And those Band-Aid fixes, if I can call 
it that, wouldn't necessarily mean we would ever, or could 
ever, certify the system. It just means that those sites, in 
accordance with the evaluation criteria that we selected, would 
be fixed.
    Mr. Radanovich. Basically saying that reinforcing the 
levees alone will not provide the level of protection that that 
area needs, correct?
    Brigadier General Schroedel. Yes, sir, that is correct.
    Mr. Radanovich. Thank you. Mr. Snow, thanks for your 
report, too, that you brought here. And I want to hold this 
part up. And what is really interesting to me is Sacramento's 
level of flood protection compared to some of the other river 
cities throughout the United States.
    It is embarrassing, but there is Sacramento and its level 
of protection. New Orleans was even up here, and we are worse 
than New Orleans, but nowhere near compared to some of the 
other major river cities in the United States.
    In the discussion that we are having with regard to the 
protection of levees, levee reinforcement, those being done 
still have not raised this bar, I mean, that is what will bring 
this bar to this level right now, right?
    Mr. Snow. Well, the project that is actually the Corps's 
project working with local agencies that includes levee 
improvements on the American River and the Sacramento River, 
combined with the Folsom Dam improvements, gets you up to 200-
year. So some levee improvements, but also changing the outlet 
works at Folsom, as well as a Folsom Dam raise.
    Mr. Radanovich. The Folsom Dam raise. When you are talking 
about improvements at Folsom, it is mainly the raise of the 
dam, is that right?
    Mr. Snow. I believe it is the outlet works, also, so you 
can evacuate more quickly.
    Mr. Radanovich. And the gate?
    Mr. Snow. Yes.
    Mr. Radanovich. If even that were done, it would bring that 
level up here still below the level of what was current in New 
Orleans, right?
    Mr. Snow. Correct.
    Mr. Radanovich. Can anybody care to tell me what we need in 
addition to what we are doing in order to get that level up to, 
say, the equivalent of, say, Dallas or Tacoma or St. Louis or 
Kansas City? Someone has got to respond.
    Mr. Snow. What did you have in mind?
    Mr. Radanovich. It can be broad, you know. It is more than 
fixing the levees, isn't it? It is more than reinforcing that. 
And if you can tell me broadly, what needs to happen in 
addition to it.
    Mr. Snow. Well, I will make a comment, and perhaps the 
General also has some thoughts about the next phases. And I 
know SAFCA, the local----
    Mr. Radanovich. I am sorry?
    Mr. Snow. SAFCA is the Sacramento Area Flood Control Agency 
that is very active, and one of the better, more responsible 
flood agencies in the State of California--are looking at other 
solutions and other parts of it.
    Obviously the historic discussion on flood protection in 
Sacramento has been upstream storage, Auburn Dam. The problem 
has been that debate in the past has actually delayed 
investment in flood improvements in the region. And our focus 
right now with the state is, we need to make sure we get these 
improvements, and not get distracted by the next debate over 
Auburn Dam.
    Should that study move forward, I believe the Bureau is 
proceeding with updating some of the numbers, at the direction 
of Congress. We will evaluate those and make assessments. But 
we don't want anything to interfere with making these 
improvements that are on the table now.
    Mr. Radanovich. And I agree. But you know, I don't like 
having a discussion that keeps us at this level of protection 
and while we continue and avoid what will really give us the 
protection that we should want and deserve compared to all the 
other cities in this country.
    Lester, I wanted to ask you one other question. In CALFED, 
there are water storage projects in CALFED, Sykes Reservoir, 
Los Vaqueros, and one other one. If we need more than levee 
reinforcement, we need storage in order to sufficiently protect 
the Delta against floods, will any of those reservoirs provide 
any adequate level of storage capacity, and thereby relieve the 
flooding problem in that area? Will it contribute?
    Mr. Snow. The two projects that became the most discussed 
during our bond deliberations with the Legislature was Sites 
Reservoir and Upper San Joaquin storage, or Temperance Flat is 
a classic one. Both of those reservoirs can be operated as part 
of an improved flood control package. Neither one would be a 
silver bullet.
    But Sites, for example, can be used in conjunction with 
Oroville, and potentially Shasta, to provide some additional 
flood space there, so that you can pull water out, move it into 
offstream storage, and provide additional flood capacity, so it 
can tie into a strategy.
    When you combine that with levee improvements and setback 
levees--and the reason I mention that is setback levees are 
also a form of storage. As you widen the channel significantly, 
then you have additional capacity in the river, and in some 
areas--obviously the best example is a bypass, where we move 
significant amounts of water out of the river system into a 
bypass that is effective as storage, basically.
    And so when you combine all those elements, that is how we 
see getting the protection we need for the future. Storage is a 
piece of it, levees is a piece of it, and how you construct the 
levees of course is a piece of it.
    Mr. Radanovich. Right. Mr. Rodgers, I know that the Bureau 
was asked to kind of relook at the Auburn Dam. Can you give me 
an idea of the progress of that effort?
    Mr. Rodgers. I believe we were on schedule to have that 
report done by this fall.
    Mr. Radanovich. Very good, thank you. Mrs. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. And Mr. Snow, just 
looking at the coordination, and it has apparently been 
identified that there are, of course, first responders in the 
areas that are going to be needed, or at least in some areas. 
Apparently there is what, 24 breachable levee areas, am I 
correct? Or at least that is what I am hearing. There are 54 
the Army Corps is identifying.
    And whatever many, are the first responders in those areas 
working in tandem with the agencies to be able to be responding 
to the needs of the community? Whether it is agriculture, local 
communities, bedroom communities, whatever.
    Mr. Snow. Yes, there is a couple of issues in play in your 
question. One, let me mention what is going on as we speak on 
the San Joaquin River, where we are very concerned.
    The San Joaquin River is flowing above capacity, will 
continue for some time because of the storms that we have had.
    The structure we have in California, which is called the 
Standard Emergency Management System, or SEMS, the first 
responders are usually the county. It is the county OES 
offices. And we support them. And then there is the Federal 
support of us.
    And so as we speak, we have our flood investigators out 
working with the counties, increasing surveillance of the 
levees, and identifying areas of greatest concern so that we 
can respond quickly.
    We have also pre-positioned flood fight materials and flood 
fight crews from California Conservation Corps and the 
California Department of Forestry, which has prison crews that 
they put together for firefighting, as well as flood fighting. 
So those are out there so that we can support, as soon as we 
hear there is an issue we can mobilize sometimes within 
minutes, certainly within hours, to flood fight.
    You made reference to the 24 sites. That is something that 
is a little bit different. That is a Corps of Engineers report 
that was made available in December, December 29 of last year, 
that identified 24 critical erosion sites on the project 
levees. And those are sites where there has been concern 
expressed that there is so much erosion that potentially in the 
next flood, you could have levee failure.
    We have mobilized and evaluated each of those sites. The 
Corps is proceeding. I believe they are going to deal with 10 
of those this year, and the state will deal with 14 of those, 
so that by the next flood season we have repaired all of those 
sites.
    Does that answer your question?
    Ms. Napolitano. It addresses most of my question. But given 
the fact that we have had a lot of rain in Northern California, 
and we expect, in my understanding, another seven days of rain, 
how is this going to affect the ability to be able to defend 
those areas?
    Mr. Snow. Well, the 24 erosion sites, we will keep an eye 
on them. That is not where we are seeing the problems right 
now.
    Ms. Napolitano. OK, they are different.
    Mr. Snow. Yes.
    Ms. Napolitano. Thank you. Page 25 of your report, you 
indicate your partners are the Corps, the Department of Fish 
and Game, developing the Delta Risk Management Strategy, local, 
county, other entities?
    Mr. Snow. We have formed an advisory group on the Delta 
Risk Management Strategy. It is kind of a technical advisory 
group. The Delta Risk Management Strategy is a fairly technical 
assessment of the integrity of the levees. And the Corps is our 
partner on that. Fish and Game is involved because of the 
implication to environmental consequences as we start working 
on Delta levees. And we have a Delta Risk Management Strategy 
Advisory Group that includes representatives from the local 
reclamation districts and the counties in the region.
    Ms. Napolitano. So you are saying that only in certain 
areas are you involving the locals.
    Mr. Snow. Well, I am saying on this investigation, which is 
a study of kind of the engineering integrity of the levees, we 
have a technical advisory group that includes local 
representatives.
    Ms. Napolitano. OK. That still kind of leaves them out of 
the whole picture.
    Mr. Snow. Well, that is not our intent. That is why we 
formed the group, that they can work with us on this.
    Ms. Napolitano. Is there a local here that might want to 
address that, whether or not there is that necessity of being 
involved in the whole planning and--I guess not.
    Mr. Chair, if I may, how will the Water Resources 
coordinate with FEMA in the event of a serious emergency in a 
formal disaster declaration? And who will be in charge? And 
with that, the statement that, according to Mr. Lokey's 
testimony from FEMA, Federal assistance from FEMA and other 
agencies will not be available until an emergency or disaster 
has been declared under the Stafford Act. And how long does 
that take?
    So I would like to have an answer, if you can clarify that.
    Mr. Lokey. Well, I will take the first one. For some 
declarations, mainly recovery, the process, you know, it could 
take in terms of weeks.
    An emergency response declaration, that can be done 
verbally, and we can lean forward on that kind of thing. No 
doubt there will be one.
    We have done a lot of planning. From the hard lessons 
learned in Katrina, we are knowledgeable now, and have 
developed plans for search and rescue aimed at hurricane 
season, but which would be applicable here. We know where the 
resources are now that we didn't know last year.
    Like for example, with the National Park Service and the 
boats that the Geological Survey has, and the military. Those 
are all rolled in now to our national strategy that we are 
planning to apply to hurricanes, but we can certainly apply it 
there. And we have commodities stored around the country as 
part of the national strategy, much of that stored at Moffett 
Field in California. And we can move things in that direction 
should a cataclysmic event occur.
    But the Governor is in charge. And through the state, we 
are supportive to that. If we see something coming, like we see 
a hurricane coming, we are authorized to move Federal assets to 
Federal facilities until a declaration. But as of right now, 
just the planning we are doing with the Federal family and the 
various agencies, the specific planning the region is doing 
with the Federal partners in the region, that would form the 
nucleus of the relationships and the plans to respond to the 
state.
    We would partner up with the state emergency management 
agency at the state, emergency operations center in Sacramento. 
The Governor would be setting, through the emergency management 
organization and the input from state agencies, would be 
setting the priorities. And we would be the Federal 
representation there, and be responding to those priorities as 
quickly as possible.
    But we have to keep in mind, the Federal government is not 
a 911 emergency response agency, nor designed to be that. We 
are doing a lot better. We can be ready to move things in 
quicker. And with the planning that has been done--I used to 
work for California Office of Emergency Services several years 
ago, and am aware of their system and the SEMS system.
    The relationships they need, the systems they have, the 
mutual aid systems they have, and things like that are much 
more robust, much more exercised, and much more sophisticated, 
as well as the relationships with the Federal family, than 
existed in Louisiana when Hurricane Katrina hit.
    They have had enough of these big events that they are 
quite good at it. And so you would feel a much more proactive 
response. But would it be a 911 call, where the Federal boats 
would be there in one hour? No, ma'am, that is not possible.
    Ms. Napolitano. Understood. But what else can be done, sir, 
in your estimation?
    Mr. Lokey. Well, we just said, the resources we have to 
keep the planning going. We have got for the specific area of 
the Governor's emergency proclamation request, ongoing planning 
is taking place where groups have been formed and where an 
ongoing process with the Federal agencies, and that gets 
stronger and better every day, as per my testimony, and the 
various things they are identifying. They are pre-identifying 
staging areas, pre-identifying resources in the state that 
might be needed to speed up the delivery of them.
    And other than keeping that process going and responding to 
the needs of the state in the other areas of the state, because 
the Delta area that we are talking about here is different than 
the area the Governor has declared the emergency on.
    And so, again, all this planning has value for that, too. 
But just continuing that planning process.
    Ms. Napolitano. Thank you very much. Thank you for your 
indulgence.
    Brigadier General Schroedel. And if I could add something 
to that. Another piece that is sometimes overlooked, FEMA has 
their role, and then we, the Corps, are FEMA's engineers.
    However, let me speak, if I could just for a second, on the 
Defense Department in my capacity as a soldier.
    During Hurricane Rita I was the Task Force Engineer for 
Hurricane Rita, Task Force Rita. What has happened is happening 
right now. The Federal government is establishing a permanent 
defense coordinating officer at Camp Parks. That is new.
    And that individual's responsibility will be to do planning 
right now for how the Defense Department might also be brought 
to bear, just as the Defense Department was, the Coast Guard 
and whoever in Katrina, Rita, and whatever.
    So that is a new twist. A permanent defense coordinating 
officer at Camp Parks, coordinating with FEMA, coordinating 
with us to also do some planning for Defense Department 
response. So that is something new, too.
    Mr. Lokey. And if I could add to that. I came back early 
from the meeting we were having with the Defense Department and 
the Nationwide Defense Coordinating Officers in San Antonio, 
Texas this week.
    One of the things we have done this year to expedite the 
delivery of military assets, because in all authority, the 
mission assigned the military takes the approval of the 
Secretary of Defense. And sometimes that does not move very 
quickly.
    So we are working on pre-scripting capabilities, pre-
scripting what we will call mission assignments. So we have 
already done the homework and already run it through the 
system, about aviation assets, medical assets, transportation 
assets, and things like that, to shorten that timeframe from 
when the state identifies the need, or we can anticipate what 
is needed, and we can actually legally get it moving.
    Ms. Napolitano. Gentlemen, that is great news. Where is 
Camp Parks?
    Brigadier General Schroedel. Just not too far from San 
Francisco, ma'am. It is pretty close to the area we are talking 
about.
    Mr. Lokey. And the defense coordinating officers will be 
housed within our 10 regional offices around the country to 
give ongoing military planning, coordination, and liaison, 
instead of as it did before where one was identified and you 
worked with them on a periodic basis.
    Ms. Napolitano. Are they also part of a planning group with 
the rest of the locals and the state and Federal? I know you 
are Federal, but----
    Mr. Lokey. Yes, they are.
    Ms. Napolitano. They are. Thank you very much for your 
indulgence, Mr. Chair.
    Mr. Radanovich. Thank you, Mrs. Napolitano. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. I have got 
numerous questions, and some I will have to submit for the 
record because of time.
    I am wondering, if it doesn't take away from my time, Mr. 
Chairman, because I understand--and correct me if I am wrong--
that Mr. Rodgers has to leave for a plane back to Sacramento?
    Mr. Rodgers. I would say we have to leave after the 
presentation probably.
    Mr. Costa. OK. Because we were going to get a briefing on 
the current efforts on the potential flooding in the affected 
areas that are in all of our districts. And so they were going 
to brief us. And that is separate from my line of questioning 
obviously. I don't know if you want to entertain a three-minute 
summary on where we are right now or await that following my 
questions.
    Mr. Radanovich. Mr. Snow, Lester, didn't you kind of update 
on the three sections and where we were currently with that?
    Mr. Snow. Yes. And you should have in front of you an 
update from midnight last night. And to summarize very quickly, 
Congressman Costa, I mean, the concern that we have in your 
region actually is that we have these high flows; we have not 
had major breaks. But we are going to----
    Mr. Costa. Where is that? I am not sure we have it up here.
    Mr. Snow. They are in this room somewhere.
    [Laughter.]
    Mr. Snow. I think you have a map in front of you now, is 
that right?
    Mr. Costa. Mr. Chairman, do you have it there? We can 
share.
    Mr. Snow. It highlights the various incidents. I think the 
real issue, the real concern is with the storm patterns and the 
snow melt, we are going to keep the Sacramento River flowing at 
or above capacity. What did I say, Sacramento? Sorry. I meant 
San Joaquin.
    Mr. Costa. And you define capacity as 8,000 cubic feet per 
second?
    Mr. Snow. It varies by location, including bypass.
    Mr. Costa. Right.
    Mr. Snow. So everything is full. So our concern is that 
system that doesn't get used as frequently as the Sacramento 
system probably has its greatest difficulty with sustained high 
flows. And that is what we are experiencing.
    So we have mobilized more surveillance of the sites, 
mobilized flood fight crews to be prepared, and are starting to 
pre-position some material in different locations so we can 
respond.
    Mr. Costa. You would define the critical time period as the 
next three, four weeks, depending upon the storms and the 
temperatures?
    Mr. Snow. Perhaps Mr. Rodgers can kind of respond. I am not 
aware of what their plans are, but my understanding is that 
entire watershed we expect to be running high for at least the 
next two weeks. Do you want to comment?
    Mr. Costa. And all the three agencies are meeting daily on 
this, and with surveillance and the other efforts to keep us 
apprised? I mean, I know how you have done it before, with the 
Bureau, with the Department of Water Resources, and the Army 
Corps, and your center there in Sacramento. Is that what is 
taking place now?
    Mr. Rodgers. If I could respond to that. We have activated 
what we call the flood operation centers in 24 hours. That is 
where we have--both project operation facilities are located 
there, the Central Valley Project, the State Water Project. 
That is also where the National Weather Service is located.
    So we coordinate the weather forecasts with our release 
strategies from the reservoirs with our flood strategies.
    Let me just add to that that yesterday we met with some of 
the Congressional staff and gave a briefing. What we plan to do 
daily is make available our operational data and what our 
projections are, available to Congressional staffers. And that 
will start in the morning. So that will be one response that we 
have.
    The second one I would mention is that we recognize that on 
the San Joaquin River, that Vernalis is an important measuring 
point for flows. And we are projecting about 30,000 cubic feet 
per second to be flowing past Vernalis at a peak, and probably 
sustained levels of about 20,000 cubic feet per second for the 
next couple of weeks, tailing off depending on the storms.
    So, as Mr. Snow has mentioned, those are flows that are 
mostly not experienced, or intermittently experienced. And so 
the system is not as equipped to handle it, and the damage to 
levees that are existing can be pretty significant. So that is 
where the monitoring is taking place now that he mentioned.
    Mr. Costa. Well, even further upstream, I mean, on the 
Chowchilla Bypass. That is seldom used except for events like 
this, and therefore its state of ability to handle the capacity 
is of question, I would guess. I mean, we had the levee failure 
in 1997 right above the pass there on the San Joaquin River.
    Can you refresh my memory? And I know that was over a 100-
year event, the flows that we had for that 24-hour period?
    Mr. Rodgers. I believe we released about 60,000 cubic feet 
per second from Friant Dam, for about a 12-hour period, and 
then tailed off from there. It was pretty significant.
    Let me just add that on Friant, our operations there we are 
coordinating very carefully with the upstream reservoir 
operators concerning their planned operations and releases. In 
addition to that, we are working with our own on project users 
to arrange to disperse outflows to the maximum extent that we 
can, so that we are putting that to every available 
distribution point.
    For example, the Friant Kern Canal can handle about 2,000 
cubic feet per second. And we are putting that right up to its 
fullest capacity, all that it can handle. Madera Canal at 400 
cubic feet per second. I took a drive on Sunday, and everything 
was flowing.
    And the other thing we have done is taken away any 
administrative barriers as incentives to keep those systems 
flowing, and coordinated with the State Water Resources Control 
Board, so that there is no disincentive to continue that sort 
of an operation.
    And then the third thing would be certainly notification 
coordination with downstream interests that could be impacted.
    Mr. Costa. All right. I think it was important for us to 
hear what is taking place here, because obviously I think we 
are at the stage that is, needs to marshal all the resources 
together, as we have done in the past, in advance, and hope 
that we will have a more traditional spring, and we will not 
get the type of event that occurred recurring that occurred in 
1997. But it appears that you are all working together, and you 
have got a plan.
    Mr. Chairman, I would like to go back to the other, if it 
is OK with you, there were a couple questions I did want to get 
in here.
    Mr. Radanovich. Yes. And we will wrap up, and if you could 
move those along, it will be great.
    Mr. Costa. All right. Mr. Snow, I really appreciated your 
presentation. I thought it was on point and very informative.
    Back on page 24 you talk about the proposed general 
obligation bond, and you look at what was originally proposed 
over four years, and then now the increased proposal.
    Do you have an estimate of what we have spent on the state 
level over the last 15-plus years, with the boatwright levee 
program and some of the other additional Federal funds that 
have come together?
    Mr. Snow. I do not. I probably could get that very quickly 
for you, but I don't have that on the top of my head.
    Mr. Costa. I think it is important, as we are looking 
toward our continued partnering, to get an idea of the fact 
that the state has not been sitting by idly, and in fact has 
made a significant investment over the last 15 years. And that 
number would be helpful.
    It was alluded to, and I think it has been discussed here, 
but how far do you think we are--maybe the Army Corps might 
want to weigh in here--as to really trying to determine whose 
responsibility it is for which levees, understanding that some 
are owned locally, privately, some are state responsibilities, 
and some are the Federal government's responsibilities. How far 
along are we in really tying that down?
    Brigadier General Schroedel. Sir, I think we have got a 
good idea. We know which levees are project levees, which ones 
are non-project levees. I think that is pretty clear. We have 
got maps. We know which levees are which.
    We also know that standard practice, once we complete a 
project, we also, as a part of the project, complete an 
operations and maintenance manual. And then, standard practice, 
a responsibility for long-term maintenance, according to the 
operations manual, is handed off to the local water district.
    Mr. Costa. I understand we know whose responsibility each 
levee is. But my point is, have we actually triaged or 
prioritized based upon where you think the greatest need is, in 
what order? Because we don't have enough money to do it 
obviously all at once, and because the funding sources are 
going to come from different areas, how we coordinate that on a 
need basis.
    Brigadier General Schroedel. Sir, I think within the Delta, 
our 180-day report, given the other limitations I mentioned 
earlier, starts to get at some of those priorities, based on 
their criteria, the CALFED objectives, based on the other 
objectives.
    But I think in general the answer to your question is there 
is work to be done. And I believe in terms of my opening 
statement, the need that we see to get to the vision and the 
work that the state is spearheading, which we support fully, on 
the Delta vision and on the long-term strategy, I think the 
sooner we can get to what does the end state look like, I think 
then we will be able to sort out the priorities that will 
contribute to that to make wiser use of investments that we 
want to make today.
    Mr. Costa. I think that priority listing is going to be 
important as we try to figure out how we come together.
    Mr. Snow, as I look on page 20, and there is other 
references toward that on your handout, you give a diagram of 
the Delta. And I want to go back to the point or the reference 
I made earlier on in terms of whether or not an evaluation is 
done as to whether or not there is a more cost-effective way of 
dealing with some of these levees than simply rehabilitating 
them.
    And I don't think it is one size fits all. But it seems to 
me whether you are talking about $6 billion or something less, 
you would offer the opportunity for those who are in an area 
that they understand what the handwriting on the wall is in 
terms of the long term, but they might to, in fact, take 
advantage of simply selling their island, where you are two or 
three property owners. Has that been evaluated? On a voluntary 
basis.
    Mr. Snow. I think that is precisely one of the potential 
outcomes of both the Delta Risk Management Strategy, as well as 
the Delta vision. There clearly are islands on the peat soils 
where, if you try to bring them up to a specific standard--
Public Law 8499, for example--it only stays there for a short 
period of time. Because the extra material that you put on 
there to armor it actually weighs it down, and it squeezes out 
that peat material.
    Some of our thought is very consistent with what you just 
said; that you lay out a plan where you recognize certain 
islands that it is just not cost-effective to continue to keep 
investing.
    Now, in those cases, though, you can't just abandon those 
island. Because an abandoned island means wave-fetch that takes 
out the next island.
    Mr. Costa. Right. Would they be a potential for water 
supply?
    Brigadier General Schroedel. Potentially. Also a potential 
for habitat conversion of some sort.
    Mr. Costa. If they are water supply, they are habitat, as 
well.
    Brigadier General Schroedel. Good point. I think the key, 
though, is making sure that landowners know exactly what is 
going on, and that they are not simply being abandoned, and 
that there is a broader plan for the Delta.
    Any time you talk about buying an island or abandoning 
levee repair, you pick up sides. And we can't do that. We have 
to have a master plan for the Delta.
    Mr. Costa. Well, thank you very much. And thank you, Mr. 
Chairman, for the time. This is something obviously we are 
going to have to continue to work together on, on a state and 
Federal basis. And I will submit my questions, my other 
questions, later on.
    Mr. Radanovich. Thank you, Mr. Costa. I appreciate your 
interest on the current situation out there, which makes this 
hearing very timely.
    One last question to Mr. Rodgers and Mr. Snow. In the event 
that a massive levee failure disrupts water supplies for many 
months or even years, do the agencies have contracts in place 
to get water from underground banks or other sources throughout 
the state to begin to think about augmenting this water supply 
if we lose it?
    Mr. Rodgers. We don't have contracts presently in place, 
but we recognize that those resources are available. And we 
have had transactions with many of those water bank entities in 
the past. So being able to tap into those in the event of a 
problem like you describe we think would be a fairly reasonable 
response on our part, and we could probably do that in short 
order.
    Mr. Radanovich. All right, thank you very much. Gentlemen, 
thank you so much for your testimony here today. It is very 
valuable, and again, very timely.
    Before I adjourn the hearing, I want to ask unanimous 
consent that the testimony of Mr. Paul Jacks be admitted into 
the hearing records. Mr. Jacks works for the California Office 
of Emergency Services, and was not able to be here today 
because of the pending flooding in California. And there being 
no objection, so ordered.
    [The prepared statement of Mr. Jacks follows:]

               Statement of Paul Jacks, Deputy Director, 
           California Governor's Office of Emergency Services

Introduction
    Good morning Chairman Pombo, Subcommittee Chairman Radanovich, and 
members of the Subcommittee. Thank you for the opportunity to testify 
before you today on ``Protecting Sacramento/San Joaquin Bay-Delta Water 
Supplies and Responding to Catastrophic Failures in California Water 
Deliveries.'' As you are well aware, California faces many threats. 
Since 1989, California has experienced 61 disasters resulting in a 
Governor's state of emergency, and, of these, 33 were significant 
enough to be declared federal emergencies or major disasters. The 
recent storms last December and January caused an estimated $400 
million in damages in a 29 county area and affected more than 50 
reclamation districts in the Sacramento-San Joaquin Delta. As Director 
Snow clearly articulated, California's aging levees pose a significant 
threat to the public safety, in addition to threatening California's 
critical water supply system that supports farms and communities across 
the state.
    You have requested that I address the role of the Governor's Office 
of Emergency Services (OES) as it relates to the coordination and 
response to massive levee failures and resulting flooding, as well as 
water delivery interruptions and other consequences associated with 
levee disasters. Today, along with Director Snow, I will speak from the 
state perspective, as you will hear also from our federal partners, 
including the Bureau of Reclamation, United States Army Corps of 
Engineers (USACE), and the Department of Homeland Security/Federal 
Emergency Management Agency (FEMA), among others.
    First, a few key principles about disasters in general:
    1.  We cannot predict what the next disaster will bring. Each 
disaster has its own unique set of issues, so our emergency response 
system must be flexible--the answer to ten different disaster scenarios 
is not ten individual plans.
    2.  All disasters require common capabilities that must always be 
addressed by public safety agencies.
    3.  Finally, to be truly prepared for any disaster we must focus on 
developing and strengthening organizational systems, training our 
personnel, communications, and resource acquisition. These areas are 
critical to all disasters, regardless of cause.
Systems
    OES serves as the lead agency for emergency management in 
California. To ensure the most effective use of all resources for 
dealing with any emergency, OES makes every effort to include 
government at all levels, businesses, community-based organizations, 
and volunteers.
    The fundamental mission of OES is to ensure that the state is ready 
and able to mitigate against, prepare for, respond to, and recover from 
the effects of emergencies that threaten lives, property, and the 
environment. To accomplish this mission, OES coordinates the activities 
of state agencies under the authority of the State Emergency Services 
Act and the California State Emergency Plan. OES also coordinates the 
response efforts of state and local agencies to ensure maximum effect 
with minimum overlap and confusion. Additionally, OES, in accordance 
with the National Response Plan (NRP), coordinates the integration of 
federal resources into state and local response and recovery 
operations, when needed.
    OES accomplishes its mission through programs and outreach efforts 
that assist and support local and other state agency emergency 
management programs.
    California has learned that the best way to ensure our disaster 
readiness is to develop sound and flexible systems that can be applied 
throughout the disaster spectrum. As stated previously, OES coordinates 
the state response to major emergencies in support of local government. 
The primary responsibility for emergency management, and in particular 
emergency response, rests with local government. In California, the 
Standardized Emergency Management System (SEMS) serves as the mechanism 
by which local government requests and receives assistance.
    Created by legislative mandate in response to the devastating 
Oakland-East Bay Hills Fire in 1991, SEMS is critical to California's 
emergency management organization. Since December 1, 1996, SEMS is 
required by law for managing responses to multi-agency and multi-
jurisdiction emergencies in California. SEMS facilitates coordination 
among all responding agencies and expedites the flow of resources and 
communication within all organizational levels.
    SEMS incorporates the Incident Command System (ICS), mutual aid, 
multi and inter-agency coordination, and operational area concepts. 
Mutual aid in California is executed through a ``bottom-up'' approach. 
Resource requests originate at the lowest level of government and are 
progressively forwarded to the next level until filled. For example, if 
an Operational Area (county) is unable to provide the necessary 
requested assistance to an affected jurisdiction, it may contact the 
OES Regional Emergency Operations Center (REOC) and forward the 
request. Requests for resources that cannot be filled at this level may 
then be forwarded to the State Operations Center (SOC). When necessary, 
the state also can coordinate federal resources on behalf of affected 
local governments, or even seek assistance from other states though the 
Emergency Management Assistance Compact (EMAC), which is administered 
by the National Emergency Management Association (NEMA). All government 
levels in California understand this system, and we all plan, train, 
and exercise within it to prevent delays and provide immediate access 
to assistance.
    Deployed for the first time during the January 1997 floods, an 
incident that affected more than 30 counties and caused an estimated $2 
billion in damages and disaster-related losses, SEMS showed its 
strength and some weaknesses. Since that time, the system has been 
steadily improved and fully utilized by state and local agencies for 
emergency response activities. Its success has been unquestioned and 
the system has worked so well that certain of its features have been 
incorporated in the new National Incident Management System (NIMS).
    As a result of having a standardized system, our planning at the 
state level has focused on assisting local governments to be well 
prepared for the hazards in their jurisdiction. Particular attention 
has been concentrated on cities and counties, as they primarily attend 
to human needs during and immediately after disasters. We have found 
that a common, all-hazards planning approach is the most effective 
means to address the many types of disasters for which we are at risk. 
In most cases, the consequences of disasters will be similar; for 
example, an evacuation and sheltering plan addressing special needs 
populations will apply whether there is flood, earthquake, or a massive 
levee failure.
    As stated previously, SEMS provides the basic framework for 
response operations in the State of California. The California State 
Emergency Plan, however, provides the policies, concepts, and general 
protocols for the implementation of SEMS. Additionally, the Department 
of Water Resources (DWR) has an administrative order that outlines its 
emergency response functions as established in the California State 
Emergency Plan and which further guides OES and DWR in coordinating 
priority tasks and programs that the two departments will perform with 
respect to emergency preparedness, response, recovery, and mitigation.
Current Levee Efforts
    Since the Governor's proclamation of a state of emergency on 
February 24, 2006, and his subsequent request to the President for an 
emergency declaration, the state has been working on a levee failure 
contingency plan in coordination with other state, local, and federal 
government agencies. All six counties (Colusa, Sacramento, Solano, 
Sutter, Yolo, and Yuba) potentially affected by a failure at one of the 
24 critical sites have been asked by OES and FEMA to review their 
emergency operations plans in relation to the current levee 
proclamation and to provide information as to their specific 
preparations for mass evacuation, shelter, and notification/warning. As 
part of the process, each county has identified special needs/
vulnerable populations in the potential inundation zones and identified 
resource shortfalls. The City of Sacramento and Sacramento County, 
which have the most population at risk from a failure of one or more of 
these critical levee sites, have established robust flood awareness 
public education campaigns, including holding community meetings to 
discuss flooding threats, evacuation, and household preparedness.
    We are also reviewing existing state and region-level plans and 
procedures, and identifying immediate actions that could be taken to 
improve these plans and procedures, in anticipation of a response to 
requests for local assistance resulting from an imminent or actual 
failure. The draft plans and procedures currently being updated or 
revised include Guidance for Sheltering During Large Scale Evacuations, 
Guidance for Evacuee Reception and Processing Center Operations, Mass 
Evacuation Guide Checklist, and the OES Inland Region Mass Evacuation 
System Operations Manual. OES is also finalizing the Inland Region Mass 
Evacuation System Operations Manual, which specifically addresses the 
handling of evacuations that cross Operational Area boundaries. 
Documents developed as part of the Flood Emergency Action Team (FEAT) 
project, subsequent to the 1997 floods, are also being revisited.
    Additionally, OES recently coordinated the formation of a Levee 
Failure Contingency Planning Group to identify response resources that 
the State may request from the Federal government to assist with a mass 
evacuation or sheltering effort. This planning group consists of a 
number of State agencies, including Department of Social Services, 
California Highway Patrol, Department of Transportation, Department of 
Health Services, Emergency Medical Services Authority, Department of 
Rehabilitation, Department of Food and Agriculture, DWR, California 
National Guard, and the American Red Cross. As we modify state plans 
and procedures we will meet with the counties to discuss potential 
joint operations and identify potential mutual aid requests. FEMA will 
also participate in those discussions with local governments.
    To support the contingency planning effort, OES, through the Levee 
Failure Contingency Planning Group, is identifying resources that may 
be requested from the Federal government to support mass evacuation or 
sheltering operations should a levee failure occur. Currently, these 
resource needs are primarily related to planning and evacuation/
sheltering support. To support planning efforts, the state could 
benefit from federal assistance in modeling failure at critical levee 
failure locations throughout the Central Valley and Delta. Examples of 
operational support include air operations management support 
(including staffing the tower at the former McClellan Air force Base), 
aircraft capable of moving swift water rescue teams and equipment from 
southern to northern California, helicopters and flat-bottomed boats to 
augment similar State and local assets in performing rescue missions, 
and mobilization center support. We will continue to refine our lists 
as our planning efforts expand. If conditions develop that could put 
further pressure on the weak levee sites, such as warm spring rains 
leading to rapid melt of the Sierra snow pack, the State and local 
agencies may request federal assistance with aerial reconnaissance of 
the levee system and with flood-fight operations.
    OES is also working with FEMA to develop a concept of operations 
for catastrophic flood response that will serve in the interim until 
more formalized catastrophic planning initiatives are finalized.
Summary
    There is no doubt that the devastating effects of hurricanes 
Katrina and Rita have been a wake up call to all, and Governor 
Schwarzenegger's aggressive response to the critical threat facing 
California's levees has focused much needed attention to this real and 
ever-present hazard. Although California has a strong emergency 
management system, we know that large-scale disasters, such as those 
associated with a catastrophic levee failure or earthquake in 
California, will affect hundreds of thousands of people, and gravely 
stress our ability to preserve life and safety and recover our economy. 
Our State and nation are rich in resources to assist during a 
disaster--from local government up to federal military assets. We will 
fail our citizens, however, if there is not a system, organization, and 
infrastructure in place to get this support to where it is needed in an 
expedient and organized manner.
    The strength and experience within California's system is 
unequivocal. Repeatedly, our state has had emergencies that span the 
entire spectrum of the challenges faced in Hurricane Katrina--severe 
economic impact, major transportation disruptions, infrastructure 
destruction, mass evacuations, loss of life and many others. From each 
of these emergencies system improvements were born. Unfortunately, we 
have had many opportunities to learn and improve and we have not been 
idle. We will continue to learn from our successes and opportunities 
for improvement to create an even stronger emergency management system
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Gentlemen, thank you so much for your 
valuable input. And this hearing is closed.
    [Whereupon, at 1:15 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
